No. _______
In The Supreme Court Of The United States
RICARDO WOODS,
Petitioner,
v.
BRIAN COOK,
WARDEN, SOUTHEASTERN CORRECTIONAL INSTITUTION,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
INDEX TO APPENDIX

CONTENTS:
Woods v. Cook, 290 F.3d 295 (6th Cir. 2020) ..................................................................................1
Woods v. Tibbals, No. 1:16cv643, 2014 WL 1531491 (S.D. Ohio March 29, 2018)......................9
Woods v. Cook, Entry Denying Rehearing En Banc (6th Cir. July 7, 2020) ..................................19
Woods v. Tibbals, No. 1:16cv643 (S.D. Ohio July 14, 2017), Magistrate Report
and Recommendations ...................................................................................................................21
Woods v. Tibbals, No. 1:16cv643 (S.D. Ohio July 14, 2017), Supplemental
Magistrate Report and Recommendations .....................................................................................65
State of Ohio v. Woods, 2014-Ohio-3892 (Ohio App. 1st Dist. 2014) ...........................................77

20

001

Woods v. Cook, 960 F.3d 295 (2020)

960 F.3d 295
United States Court of Appeals, Sixth Circuit.
Ricardo WOODS, Petitioner-Appellant,
v.
Brian COOK, Warden, Respondent-Appellee.
No. 19-3254
|
Argued: May 7, 2020
|
Decided and Filed: May 22, 2020

warrant habeas relief.
Affirmed.
Posture(s):
Procedural
Post-Conviction Review.

[1]

Criminal Law
impeachment

Cross-examination and

Under the Confrontation Clause, the State may
introduce testimony only by calling witnesses to
the stand to face cross-examination by the
defendant. U.S. Const. Amend. 6.

[2]

Criminal Law

Availability of declarant

Under an exception to the Confrontation Clause,
courts may admit a witness’s testimonial
out-of-court statement if the prosecution
establishes the witness’s unavailability and
shows the defendant received a prior
opportunity for cross-examination. U.S. Const.
Amend. 6.

Holdings: The Court of Appeals, Sutton, Circuit Judge,
held that:
as a matter of first impression, admitting identification
evidence as common-law dying declaration was not
contrary to clearly established Supreme Court precedent
concerning the Confrontation Clause;

Review;

West Headnotes (15)

Synopsis
2014 WL 4437733, of
Background: After affirmance,
state prisoner’s murder conviction, prisoner petitioned for
federal habeas relief, asserting Confrontation Clause
challenge to admission of victim’s dying declaration
Batson error
using a system of blinks, as well as
during jury selection. The United States District Court for
the Southern District of Ohio, Michael Ryan Barrett, J.,
2018 WL 1531491, adopted in part the report and
recommendation of Michael R. Merz, United States
2017 WL 3008432 and
2017
Magistrate Judge,
WL 3492697, and denied the petition as to the
Batson claims. Prisoner
Confrontation Clause and
appealed.

Appellate

[1]

as a matter of first impression, admitting identification
evidence as common-law dying declaration was not an
unreasonable application of clearly established Supreme
Court precedent concerning the Confrontation Clause; and
[2]

state court’s delay in requiring State to offer
race-neutral explanation for using peremptory challenge
against African-American prospective juror did not

[3]

[3]

Criminal Law Out-of-court statements and
hearsay in general
The State may admit an unconfronted
out-of-court statement if it fits a historically
recognized common-law exception to the
Confrontation Clause established at the time of
the founding. U.S. Const. Amend. 6.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

002

Woods v. Cook, 960 F.3d 295 (2020)

[4]

Criminal Law

Waiver of right

[8]

Forfeiture by wrongdoing, as common-law
exception to the Confrontation Clause, permits
the introduction of statements by a witness who
was unable to testify at trial and who was
detained or kept away by the means of
procurement of the defendant. U.S. Const.
Amend. 6.

[5]

Criminal Law

[6]

Homicide

Grounds of admissibility in general

The common-law dying declaration rule allows
the government to introduce out-of-court
testimonial statements made by a witness who
was on the brink of death and was aware that he
was dying.

[7]

Homicide

Dying Declarations

Conduct of trial, in general

State court’s admission of murder victim’s
out-of-court identification of state prisoner as
his assailant by using a system of blinks, under
common-law dying declaration rule, was not
contrary to clearly established Supreme Court
precedent concerning the Confrontation Clause,
as would provide basis for federal habeas relief;
the Supreme Court had acknowledged the
potential permissibility of admitting dying
declarations as common-law exception to
Confrontation Clause, while leaving the issue in
limbo. U.S. Const. Amend. 6;
28 U.S.C.A. §
2254(d)(1).

Waiver of right

Forfeiture by wrongdoing, as common-law
exception to the Confrontation Clause, prevents
defendants from reaping the benefit of witness
tampering or intimidation or murder. U.S.
Const. Amend. 6.

Habeas Corpus

[9]

Habeas Corpus

Conduct of trial, in general

State court’s admission of murder victim’s
out-of-court identification of state prisoner as
his assailant by using a system of blinks, under
common-law dying declaration rule, was not an
unreasonable application of clearly established
Supreme Court precedent concerning the
Confrontation Clause, as would provide basis
for federal habeas relief; victim had returned to
consciousness fully paralyzed and intubated on
ventilator in hospital’s intensive care unit (ICU),
he understood his peril, and he requested his
Sacrament
of
Last
Rites
and
kept
acknowledging to Catholic priest that he likely
would not survive his injuries, even if victim’s
vital signs had been stable, and even though
victim did not die until 15 days after the
shooting and ten days after the declaration. U.S.
Const. Amend. 6;

28 U.S.C.A. § 2254(d)(1).

The common-law dying declaration rule is
premised on the understanding that the dying
usually do not spend their last breaths lying.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

003

Woods v. Cook, 960 F.3d 295 (2020)

[10]

Homicide

and at step three, the court must examine the
justification
and
determine
whether
discrimination occurred.

Grounds of admissibility in general

The common-law dying declaration rule applies
in circumstances so solemn, and so awful, that
every motive to falsehood is silenced, and the
mind is induced by the most powerful
considerations to speak the truth.
[14]

[11]

Homicide

Homicide

Condition of Declarant

Time intervening before death

It is not the rapid succession of death, as
opposed to its imminent likelihood, that renders
an out-of-court statement admissible as a
common-law dying declaration.

[13]

Jury

Jury

State court’s delay in requiring State to offer
race-neutral explanation for using peremptory
challenge against African-American prospective
juror, i.e., it reserved a statement for later
because state court believed, incorrectly, that
state prisoner might need to establish a pattern
of bias but state court asked for the statement
after State had exercised a peremptory strike
against a second African-American prospective
juror, was not contrary to or an unreasonable
application of clearly established Supreme Court
precedent, as would provide basis for federal
habeas relief.

The common-law dying declaration rule does
not require dropping blood pressure or a
flatlining heartbeat; it demands only injuries of
such a nature that the usual or probable effect
upon the average person so injured would be
mortal.

[12]

Habeas Corpus

Peremptory challenges

When a defendant objects to a prosecutor’s use
of a peremptory strike,
Batson requires
courts to follow three steps; at step one, the
defendant must make out a prima facie case
giving rise to an inference of discriminatory
purposes in the peremptory strike; at step two,
the burden shifts to the State to explain
adequately the racial exclusion by offering
permissible, race-neutral reasons for the strike;

[15]

Jury

Peremptory challenges

A pattern of potentially discriminatory
peremptory strikes against prospective jurors is
not the only evidence relevant to a
Batson
violation; a court could compare a juror struck
with jurors not struck, or it could point to
disparities in the State’s questioning, or it could
identify history showing the State’s use of
discriminatory peremptory strikes in similar
cases.

*297 Appeal from the United States District Court for the
Southern District of Ohio at Cincinnati. No.
1:16-cv-00643—Michael R. Barrett, District Judge.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

004

Woods v. Cook, 960 F.3d 295 (2020)

Attorneys and Law Firms
ARGUED: Jennifer M. Kinsley, KINSLEY LAW
OFFICE, Cincinnati, Ohio, for Appellant. Hilda
Rosenberg, OFFICE OF THE OHIO ATTORNEY
GENERAL, Cincinnati, Ohio, for Appellee. ON BRIEF:
Jennifer M. Kinsley, KINSLEY LAW OFFICE,
Cincinnati, Ohio, for Appellant. Stephanie L. Watson,
OFFICE OF THE OHIO ATTORNEY GENERAL,
Columbus, Ohio, for Appellee.
Before: BATCHELDER, GIBBONS, and SUTTON,
Circuit Judges.

OPINION
SUTTON, Circuit Judge.
*298 When Ricardo Woods shot David Chandler in the
head, he might have thought that he had silenced him for
good. But while paralyzed from the neck down, Chandler
retained some movement in his eyelids. In the days before
he succumbed to his injuries, Chandler used a system of
blinks to identify his assailant. At Woods’ murder trial,
the court allowed the State to introduce Chandler’s
identification of Woods, holding it an admissible dying
declaration. An Ohio jury convicted him, and the state
courts affirmed the decision. Woods filed a habeas
petition alleging a violation of his Confrontation Clause
rights under the Sixth (and Fourteenth) Amendment. He
Batson by not
also claimed the court misapplied
timely requiring the State to offer a race-neutral
explanation for a peremptory strike. Because neither of
these claims satisfies the strictures of review under
AEDPA, we affirm their rejection.

I.
David Chandler struggled with drug addiction. On

October 27, 2010, he indulged his habit with two
companions: James Spears and William Smith. In time
the three men ran out of drugs. Shortly after 1:00 a.m.,
Spears drove the others to downtown Cincinnati to buy
more.
They parked on the side of the street and waited to
connect with one of their dealers. Chandler left the car
and returned two minutes later, telling the group that “his
man was coming down the street.” R. 10-27 at 188.
Things fell apart from there. The men heard a voice from
outside the vehicle on the passenger’s side: “Hey,
Chandler, where’s my money[?]” R. 10-29 at 56. Smith
glimpsed the speaker: a bearded African American man in
his thirties, of average build, dressed in black. But before
he could investigate, bullets ripped through the side
window. Spears sped away.
Too late. One of the assailant’s bullets hit Chandler’s
spinal cord, paralyzing him on the spot. Spears rushed
Chandler to the hospital. He went to the intensive care
unit, and doctors placed him on life support. Chandler lay
unconscious, a ventilator doing the breathing he could
not. All involved recognized the gravity of Chandler’s
condition.
A few days later, Chandler regained consciousness. Still
in critical condition, he could control movement only in
his eyes. With some experimentation, doctors worked out
a system of communicating by blinking. Three quick
blinks would stand for “yes,” for example, and two quick
blinks for “no.” In this way, Chandler answered questions
from his medical team and his brother.
Chandler communicated with Father Phillip Seher, a
Catholic priest and friend for sixteen years. They
discussed that *299 Chandler’s condition “looked very
critical,” he could have strokes at any point, and “many
other things [could] go[ ] wrong.” R. 10-5 at 36. Chandler
communicated to Father Seher that, despite regaining
consciousness, he understood his “likelihood of death was
still that”—likely. Id. at 36–37. He asked Father Seher to
administer the Sacrament of Last Rites even after being
offered the Sacrament of the Sick. Father Seher did so.
On November 2, the day after he received his Last Rites,
Chandler responded to questioning by the police that he
knew his shooter’s identity. When asked to spell out a
name, Chandler blinked the letter “O.” Police showed him
a photo of Ricardo Woods, a dealer known on the streets
as “O.” Chandler confirmed that Woods shot him.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

005

Woods v. Cook, 960 F.3d 295 (2020)

The identification didn’t come as a surprise. Woods had
sold Chandler drugs on many occasions, and Chandler
owed him money. The day before the attack, Woods
warned Chandler that “he needed to get his money [soon]
or something was going to happen.” R. 10-29 at 96. And
the shooting happened 100 feet from Woods’ house.
Chandler’s health deteriorated after the police interview.
Two days later, on November 4, he suffered one of many
strokes. Then came an aneurysm that left him brain dead.
On November 12, fifteen days after the shooting and ten
days after identifying Woods, he died.
In January, the police arrested Woods in Lorain, Ohio,
over 200 miles away from his house in Cincinnati. While
in jail, Woods confided to his cellmate (a government
informant) that he shot someone over an outstanding drug
debt.
At trial, the court admitted Chandler’s identification of
Woods as a dying declaration. The jury convicted Woods
on various offenses related to the shooting. Among other
sentences, the court imposed two consecutive sentences of
fifteen years to life for the murder.
Woods raised various objections on direct appeal. None
gained ground. He filed a habeas petition under § 2254,
pressing eleven claims. All that matters here are two sets
of rulings. In one, the court denied Woods’ claim that the
admission of Chandler’s deathbed identification violated
the Confrontation Clause and granted a certificate of
appealability on the issue. In the other, the court initially
granted Woods’ claim that the State impermissibly struck
a black juror based on race. In response to that ruling,
however, the State filed a Rule 60(b) motion pointing out
Batson claim turned on a transcript error that
that the
the Ohio courts corrected during the direct appeal. After
reviewing the right transcript, the court granted the
Batson claim. It granted a
motion and denied the
certificate of appealability on the issue.

II.
Confrontation Clause. The Confrontation Clause
guarantees each criminal defendant the right “to be

[1] [2] [3]

confronted with the witnesses against him.” U.S. Const.
amend. VI. That means the State may introduce testimony
only by calling witnesses to the stand to face
cross-examination by the defendant. But that rule comes
with two sets of exceptions. The first is that courts may
admit a witness’s testimonial out-of-court statement if the
prosecution establishes the witness’s unavailability and
shows the defendant received a “prior opportunity for
Crawford v. Washington, 541
cross-examination.”
U.S. 36, 54, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004). The
second is that the state may admit an unconfronted
out-of-court statement if it fits a historically recognized
common law exception. Because the Confrontation *300
Clause is “most naturally read as a reference to the right
of confrontation at common law,” it incorporates
“exceptions”
to
the
confrontation
requirement
Id.
“established at the time of the founding.”
Courts have recognized two key common law
exceptions. The first, forfeiture by wrongdoing, permits
the introduction of statements by a witness unable to
testify at trial and who was “detained or kept away by the
Giles v.
means of procurement of the defendant.”
California, 554 U.S. 353, 359, 128 S.Ct. 2678, 171
L.Ed.2d 488 (2008) (quotation omitted). This exception
prevents defendants from reaping the benefit of witness
tampering or intimidation or murder. The Supreme Court
has expressly approved this exception and its historical
Id. at 359–61, 128 S.Ct. 2678.
pedigree.
[4]

[5]

The second exception, dying declarations, allows the
government to introduce testimonial statements made by a
witness who is “on the brink of death and aware that he
Id. at 358, 128 S.Ct. 2678. It is premised
was dying.”
on the understanding that the dying usually do not spend
their last breaths lying. While “[t]he existence of [the
dying declarations] exception as a general rule of criminal
hearsay law cannot be disputed,” the Court in
Crawford declined to decide “whether the Sixth
[6] [7]

Amendment incorporates” the exception.
541 U.S. at
Giles left the issue for another
56 n.6, 124 S.Ct. 1354.
554 U.S. at 358–59, 128 S.Ct. 2678. The
day too.
exception thus remains in High Court limbo.
Under AEDPA, Woods is eligible for relief only if he
shows that the state court’s decision (1) was “contrary to
... clearly established” federal law as determined by U.S.
Supreme Court precedents or (2) amounted to “an

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

006

Woods v. Cook, 960 F.3d 295 (2020)

unreasonable application” of the same.
28 U.S.C. §
2254(d)(1). That leaves two layered questions. Did the
state court’s reliance on the dying declarations exception
to the Confrontation Clause conflict with clearly
established Supreme Court precedent? If not, did the state
court unreasonably apply the exception?

A.
The answer to the first question takes little time. Since
Crawford, the U.S. Supreme Court has acknowledged
the potential permissibility of this common law exception
Giles, 554 U.S. at
to the Confrontation Clause. See
358, 128 S.Ct. 2678. Under these circumstances, we
cannot fault state courts for continuing to do what the
U.S. Supreme Court has acknowledged they may be able
Crawford and what the Court itself did
to do after
[8]

before
Crawford. See, e.g.,
Mattox v. United
States, 156 U.S. 237, 243–44, 15 S.Ct. 337, 39 L.Ed. 409
(1895) (noting that courts have treated dying declarations
as “competent testimony” since “time immemorial”). We
have said as much in an unpublished decision, Walker v.
Harry, 462 F. App’x 543, 545–46 (6th Cir. 2012), and
now say the same in a published decision. Our sister
circuits have taken a similar view in unpublished opinions
too. See, e.g., Martin v. Fanies, 365 F. App’x 736,
738–39 (8th Cir. 2010); Brown v. Att’y Gen. of Cal., 650
F. App’x 434, 436 (9th Cir. 2016). We are not aware of a
contrary decision, and Woods has not identified one.

breathe without a ventilator, he understood his peril.
While discussing his “very critical” condition with Father
Seher, Chandler “kept acknowledging” that he likely
would not survive his injuries. R. 10-5 at 36–37. He
requested his Last Rites. And he gave his statement to
police only after receiving the sacrament. All of this
satisfied the common law requirement, or at least
reasonably applied that requirement, that Chandler’s
identification come under circumstances “so solemn, and
so awful,” that “every motive to falsehood is silenced, and
the mind is induced by the most powerful considerations
to speak the truth.” R. v. Woodcock (1789), 168 Eng. Rep.
352, 353; 1 Leach. 500, 502.
Woods resists this conclusion on several grounds. He
argues that Chandler wasn’t on the “brink of death”
during his interview because his “vital signs were stable”
and he could “follow commands.” Appellant Br. 23. But
he offers nothing to suggest that the dying-declarations
exception ever required dropping blood pressure or a
flatlining heartbeat. It demands only injuries of “such a
nature that the usual or probable effect upon the average
State v. Teeter, 65
person so injured would be mortal.”
Nev. 584, 200 P.2d 657, 679 (1948). We have found it
enough that an individual’s injuries confine him to an
Bell v. Arn, 536
“intensive care unit” on a ventilator.
F.2d 123, 125 (6th Cir. 1976). Those who have suffered
“a gunshot wound to the head” and who cannot breathe as
a result have given admissible dying declarations even
when they remained fully responsive and unlikely to “die
under [ ] short-term care.” Barnett v. State, 284 Ga. 781,
671 S.E.2d 823, 825–26 (2009). The early cases take at
least as permissive a view. They extended to badly
bruised individuals whose condition doctors “did not
consider ... quite hopeless.” R. v. Mosley & Morrill
(1825), 168 Eng. Rep. 1200, 1201–03; 1 Mood. 97,
100–105.
[11]

In a similar vein, Woods objects that Chandler did not
die until fifteen days after the shooting (and ten days after
his interview) and that during Chandler’s interview no
one thought he “would die [later] that day.” Appellant Br.
23. But it is not the “rapid succession of death,” as
opposed to its imminent likelihood, that “renders the
[declarant’s] testimony admissible.” Mattox v. United
States, 146 U.S. 140, 151 (1892). The early cases
admitted statements made some time before death. See,
e.g., Mosley & Morrill, 168 Eng. Rep. at 1201–03 (ten
days); Woodcock, 168 Eng. Rep. at 352 (two days);
Bambridge’s Case (1730), 17 How. St. Tr. 397, 417–18,
[12]

B.
[9] [10]
The focus of the appeal turns on the answer to the
second question—the unreasonable application question.
For a testimonial statement to be admissible at common
law, the declarant had to be “on the brink of death and
Giles, 554 U.S. at 358, 128
aware that he was dying.”
S.Ct. 2678. Chandler’s statement met this requirement for
several reasons. He returned to consciousness fully
paralyzed *301 and intubated in an ICU bed. Unable to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

007

Woods v. Cook, 960 F.3d 295 (2020)

423 (three days). And later cases have never called that
principle into doubt. See, e.g., People v. Monterroso, 101
P.3d 956, 971 (Cal. 2004) (eleven days); Swisher v.
Commonwealth, 26 Gratt. 963, 970 (Va. 1875) (ten days);
Kilpatrick v. Commonwealth, 31 Pa. 198, 209, 215 (Pa.
1858) (nine days).
Woods adds that Chandler lacked the subjective “belie[f]
Giles, 554 U.S. at 364, 128
he could [not] recover,”
S.Ct. 2678, based on two pieces of evidence: Chandler
indicated he would “walk out of the hospital” when asked
what would happen if the doctor removed life support, R.
10-28 at 191–93, and he requested that doctors fight until
the end. But this evidence shows Chandler’s courage in
the face of death; it does not change his calculation of the
odds of survival. His condition, and his doctors’
commentary on it, gave plenty of reason to think he
wouldn’t make it. And the state court did not act
unreasonably in crediting the most probative—and most
contemporaneous—evidence of Chandler’s personal
convictions: his conversation with Father Seher and his
request for the Sacrament of Last Rites.
*302 Woods separately challenges the force of Chandler’s
blinking testimony, noting that injuries and medication
may have impaired Chandler, that muscle spasms may
have generated his blinking, or that Chandler may not
have seen his attacker in the night. But the State offered
sufficient evidence to support the state court’s ruling. It
presented testimony from Chandler’s doctors that he
remained alert and lucid, with Father Seher adding that
Chandler had the “clearest mind that [he] remember[ed]
[him ever] having” during his questioning. R. 10-28 at 57.
It called experts to explain the steps taken to ensure that
Chandler’s blinks were “purposeful.” R. 10-30 at 35. And
it established that Chandler had known Woods for a long
time, making it unlikely that he would mistake Woods’
voice or face for that of someone else. All in all, the state
court’s decision did not unreasonably apply the common
law dying declarations rule.

III.
[13]
Batson claim. Woods separately claims that the
State impermissibly struck a black juror based on race.
This claim, too, receives deferential review under

28 U.S.C. § 2254(d)(1). When a
AEDPA. See
defendant objects to a prosecutor’s use of a peremptory
Batson requires courts to follow three steps.
strike,
Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90
L.Ed.2d 69 (1986). Step One: The defendant must make
out a prima facie case “giv[ing] rise to an inference of
Id.
discriminatory purposes” in the peremptory strike.
at 94, 106 S.Ct. 1712. Step Two: The burden shifts to the
State to “explain adequately the racial exclusion” by
offering permissible, race-neutral reasons for the strike.
Id. Step Three: The court must examine the
justification and determine whether discrimination
Id. at 97–98, 106 S.Ct. 1712.
occurred.
Woods claims that, after he challenged one of the State’s
strikes and made his prima facie case, the court failed to
solicit a race-neutral explanation from the State. But
here’s what happened. During voir dire, the State moved
to strike Juror #7, a black juror. Woods’ attorney
Batson challenge, observing that
responded with a
while the State hadn’t “demonstrated a pattern” of striking
black jurors, its choice to strike Juror #7 seemed
“particularly significant because it’s a white victim and
African-American defendant, and there’s only three
African-Americans in the ven[ire].” R. 10-26 at 107. The
court initially made the statement that it thought Woods
may “have to [demonstrate] a pattern [of bias] first.” Id.
But it then said it would “reserve [a] statement [from the
State] for later.” Id. at 107–08. It thus seemed to
acknowledge Woods’ prima facie case and the State’s
obligation to furnish a race-neutral explanation.
Later in voir dire, the State used a peremptory strike
against a second black juror. Woods’ counsel again raised
Batson challenge. The court resolved that exchange.
a
Then it returned to the first black juror. The court asked
the State for a race-neutral explanation for striking Juror
#7. The State answered that Juror #7 had previous
“experience with misidentifications,” which could
prejudice the State’s reliance on the deathbed
identification of Woods. Id. at 220. The court gave Woods
a chance to reply. He argued that Juror #7 seemed, by all
accounts, “fair and impartial.” Id. at 221. Assessing this
exchange, the court found that “the State has given a
race-neutral explanation, so I’m not gonna allow your
Batson [c]hallenge.” R. 28-1 at 3.
[14]

The court followed

Batson when all was said and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

008

Woods v. Cook, 960 F.3d 295 (2020)

done—and certainly did not cross any clearly established
lines. Its conduct was unusual, it is true. It introduced
*303 a delay between the time when Woods made out his
prima facie case (Step One) and the time when it required
the government to furnish its race-neutral explanation
(Step Two). But that delay does not violate clearly
Batson itself
established Supreme Court precedent.
expressly declined “to formulate particular procedures to
be followed upon a defendant’s timely objection to a
Batson, 476 U.S. at 99 &
prosecutor’s challenges.”
n.24, 106 S.Ct. 1712. No Supreme Court decision has
Batson violation in similar circumstances.
identified a
Nor do we see any prejudice from the variation. Woods
had the chance to press his case either way.
Woods resists this conclusion on the ground that, in the
transcript originally filed before this court, the state trial
court said that “the State hasn’t given a race-neutral
Batson
explanation, so I’m gonna allow your
challenge.” R. 10-26 at 222. But that transcript reflects
two since-corrected errors by the court reporter. In fact,
the court said, “the State has given a race-neutral
Batson
explanation, so I’m not gonna allow your
[c]hallenge.” R. 28-1 at 3. It bears noting that the state
courts caught the error, and each court assessed the claim
under the right transcript.
Woods also complains that the trial court said he may
“have to [demonstrate] a pattern [of bias] first” before
Batson objection. R. 10-26 at 107. If the
pressing his
court meant that Woods had to wait until the State struck
multiple black jurors, it misunderstood the law. A pattern
of strikes is not the only relevant evidence. A court could
compare a juror struck with jurors not struck; it could
point to disparities in the State’s questioning; or it could
identify history showing the State’s use of discriminatory
Flowers v.
peremptory strikes in similar cases. See
Mississippi, ––– U.S. ––––, 139 S. Ct. 2228, 2243, 204
L.Ed.2d 638 (2019). But even if that’s what the court
[15]

End of Document

meant to say, that does not help Woods. For the court
eventually did what the law required. It accepted that
Woods made out his prima facie case, it required the State
to offer its race-neutral explanation, and it evaluated the
validity of that explanation.
But wait, Woods says: The State’s race-neutral
explanation came too late because by that point the court
had already dismissed Juror #7. So if the court had found
the State’s race-neutral explanation unpersuasive, it no
longer would have had the option to “disallow the
discriminatory challenge[ ] and resume selection with the
improperly challenged juror[ ] reinstated on the venire.”
Batson, 476 U.S. at 99 n.24, 106 S.Ct. 1712. That’s a
fair concern. But Woods overlooks another remedy the
court could have applied: “discharg[ing] the venire and
select[ing] a new jury from a panel not previously
Id. That approach would
associated with the case.”
have wasted time and plenty of judicial resources, to be
sure. But because it would not have violated Woods’
constitutional rights, he cannot use the scenario to secure
relief.
Batson errors are structural.
Woods reminds us that
United States v. McAllister, 693 F.3d 572, 582 n.5
See
(6th Cir. 2012). But here, there is no error at all. The State
properly exercised its peremptory strike. And because the
Batson, the court properly
state court followed
empaneled Woods’ jury. This claim thus does not get off
the ground.
We affirm.
All Citations
960 F.3d 295

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

009

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

2018 WL 1531491
Only the Westlaw citation is currently available.
United States District Court, S.D. Ohio, Western
Division.
Ricardo WOODS, Petitioner,
v.
Terry A. TIBBALS, Warden, Allen Oakwood
Correctional Institution, Respondent.
Case No. 1:16-cv-643
|
Filed 03/29/2018
Attorneys and Law Firms
Jennifer M. Kinsley, The Law Office of Jennifer Kinsley,
Cincinnati, OH, for Petitioner.
Hilda Rosenberg, Office of the Ohio Attorney General,
Cincinnati, OH, for Respondent.

OPINION & ORDER
MICHAEL R. BARRETT, JUDGE
*1 This matter is before the Court on the Magistrate
Judge’s July 14, 2017 Report and Recommendation
(“R&R”) and August 15, 2017 Supplemental R&R
recommending that Petitioner’s Petition be dismissed with
prejudice. (Docs. 19, 22).
The parties were given proper notice under Rule 72(b) of
the Federal Rules of Civil Procedure, including notice that
the parties would waive further appeal if they failed to file
United
objections to the R&R in a timely manner. See
States v. Walters, 638 F.2d 947, 949-950 (6th Cir. 1981).
Petitioner filed Objections to the R&R (Doc. 20) and the
Supplemental R&R (Doc. 25). Respondent has not filed a
response to those Objections.

In the Supplemental R&R, the Magistrate Judge noted
that as to the recommendation denying claims Two, Four,
Five, Six, Seven, Eight, Nine, Ten and Eleven, Petitioner
has only filed general objections. Specifically, Petitioner
states “[t]his objection is made to preserve the record and
to avoid waiver of arguments for possible appeal.” (Doc.
20, PAGEID # 4175).
“[O]nly those specific objections to the magistrate’s
report made to the district court will be preserved for
appellate review; making some objections but failing to
raise others will not preserve all the objections a party
Smith v. Detroit Fed’n of Teachers Local
may have.”
231, 829 F.2d 1370, 1373 (6th Cir. 1987). “The filing of
vague, general, or conclusory objections does not meet
the requirement of specific objections and is tantamount
to a complete failure to object.” Drew v. Tessmer, 36
Miller v.
Fed.Appx. 561, 561 (6th Cir. 2002) (citing
Currie, 50 F.3d 373, 380 (6th Cir. 1995)).
However, in Petitioner’s objections to the Magistrate
Judge’s Supplemental R&R, Petitioner does address the
Magistrate Judge’s recommendations denying claims
Two, Four, Five, Six, Seven, Eight, Nine, Ten and Eleven
by repeating the arguments made in his Reply. (Doc. 25,
PAGEID # 4274). The Court questions whether this is a
proper objection, but will nevertheless address the
Magistrate Judge’s recommendation denying claims Two,
Four, Five, Six, Seven, Eight, Nine, Ten and Eleven.
For the reasons stated below, the Court SUSTAINS
Petitioner’s objections as to Ground Three, but
OVERRULES Petitioner’s remaining objections to the
Magistrate Judge’s July 14, 2017 R&R and August 15,
2017 Supplemental R&R.

I. BACKGROUND
The factual and procedural history of this case is
described in the Magistrate Judge’s July 14, 2017 R&R.
(Doc. 19, PAGEID #4126-4130). The same will not be
repeated here except to the extent necessary to address
Petitioner’s objections.
This matter arises out of Petitioner’s habeas action
28 U.S.C. § 2254 to obtain relief
brought pursuant to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

010

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

from his convictions in the Hamilton County Common
Pleas Court on charges of purposeful murder, felony
murder and felonious assault, all with a firearm
specifications, and two counts of possessing a weapon
while under disability.
Petitioner has set forth eleven grounds for relief in his
Petition. The Magistrate Judge recommends denying
relief on all eleven grounds and dismissing the Petition
with prejudice.

II. ANALYSIS

A. Standard of Review
*2 This Court shall consider objections to a magistrate
judge’s order on a nondispositive matter and “shall
modify or set aside any portion of the magistrate judge’s
order found to be clearly erroneous or contrary to law.”
Fed.R.Civ.P. 72(a). When objections to a magistrate
judge’s report and recommendation are received on a
dispositive matter, the assigned district judge “must
determine de novo any part of the magistrate judge’s
disposition that has been properly objected to.” Fed. R.
Civ. P. 72(b)(3). After review, the district judge “may
accept, reject, or modify the recommended decision;
receive further evidence; or return the matter to the
28
magistrate judge with instructions.” Id.; see also
U.S.C. § 636(b)(1).

B. Ground One: Dying declaration
In Ground One, Petitioner claims that the trial court
violated his rights under the Confrontation Clause by
admitting an identification of him made by the murder
victim, David Chandler. At the time of the identification,
Chandler was paralyzed and on a ventilator. The police
asked Chandler to blink on the letter of the alphabet
which corresponded with the shooter’s first name. (Doc.
10-8, PAGEID #560-61). The police then showed
Chandler a photo of Petitioner and asked if he was the
shooter. (Doc. 10-8, PAGEID #563-64). According to the
police, Chandler blinked three times for “yes.” (Doc.

10-8, PAGEID #564).
The Magistrate Judge explained that Petitioner presented
this constitutional claim on direct appeal. Therefore, the
Antiterrorism and Effective Death Penalty Act of 1996
28 U.S.C. § 2254, only permits habeas
(AEDPA),
relief if the state court judgment “resulted in a decision
that was contrary to, or involved an unreasonable
application of, clearly established federal law, as
determined by the Supreme Court of the United States” or
“resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence
28 U.S.C. §
presented in the State court proceeding.”
2254(d). Clearly established federal law “refers to the
holdings, as opposed to the dicta, of [the Supreme
Court’s] decisions as of the time of the relevant
Williams v. Taylor, 529 U.S.
state-court decision.”
362, 412, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000).
The Magistrate Judge explained that there is no Supreme
Court holding on the parameters of the dying declaration
exception to the Confrontation Clause. The Magistrate
Giles v. California, 554 U.S. 353
Judge discussed
(2008), citied by Petitioner, and concluded that the
Supreme Court’s discussion of the dying declaration
exception in that case was dicta.
The United States Supreme Court has not expressly
recognized that dying declarations are an exception to the
Sixth Amendment’s confrontation right. The Supreme
Court has explained:
Crawford v. Washington, 541 U.S. 36, 124 S.Ct.
in
1354, 158 L.Ed.2d 177, [ ] we first suggested that dying
declarations, even if testimonial, might be admissible
as a historical exception to the Confrontation Clause.
Id., at 56, n. 6, 124 S.Ct. 1354; see also
Giles v.
California, 554 U.S. 353, 358–359, 128 S.Ct. 2678,
171 L.Ed.2d 488 (2008). We noted in Crawford that we
“need not decide in this case whether the Sixth
Amendment incorporates an exception for testimonial
541 U.S., at 56, n. 6, 124 S.Ct.
dying declarations.”
1354. Because of the State’s failure to preserve its
argument with regard to dying declarations, we
similarly need not decide that question here.
Michigan v. Bryant, 562 U.S. 344, 351, n.1, 131 S. Ct.
1143, 1151, 179 L.Ed. 2d 93 (2011); see also Walker v.
Harry, 462 Fed.Appx. 543, 545-46 (6th Cir. Feb. 13,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

011

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

2012) (explaining that “[i]n Crawford and again in
Giles v. California, 554 U.S. 353, 128 S.Ct. 2678, 171
L.Ed.2d 488 (2008), the Supreme Court hinted that dying
declarations may fall within an exception to the
constitutional bar against testimonial hearsay.”).
*3 Because the Supreme Court has yet to rule on the
status of dying declarations under the Confrontation
Clause, the Court finds no error in the Magistrate Judge’s
conclusion that Petitioner’s claim is not cognizable on
federal habeas review.

C. Ground Two: Pre-trial identification
In Ground Two, Petitioner argues that Chandler’s
identification of him occurred under suggestive
circumstances and its admission at trial violated his due
process rights. The Magistrate Judge explained that
Petitioner raised this claim on direct appeal. The
Magistrate Judge concluded that the First District Court of
Appeal’s conclusion on reliability of the identification
was not contrary to or an objectively unreasonable
application of federal law.
As the Supreme Court has explained:
We have explained that “an unreasonable application
of federal law is different from an incorrect application
Williams v. Taylor, 529 U.S. 362,
of federal law.”
410, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000). Indeed,
“a federal habeas court may not issue the writ simply
because that court concludes in its independent
judgment that the relevant state-court decision applied
clearly established federal law erroneously or
Id., at 411, 120 S.Ct. 1495. Rather,
incorrectly.”
that application must be “objectively unreasonable.”
Id., at 409, 120 S.Ct. 1495. This distinction creates
“a substantially higher threshold” for obtaining relief
Schriro v. Landrigan, 550
than de novo review.
U.S. 465, 473, 127 S.Ct. 1933, 167 L.Ed.2d 836
(2007).
Renico v. Lett, 559 U.S. 766, 773, 130 S. Ct. 1855,
1862, 176 L.Ed. 2d 678 (2010). Here, the Magistrate
Judge explained the First District noted that there was
evidence that Chandler had purchased drugs from Woods
in the area where the shooting occurred on a number of
prior occasions; and it was Chandler who suggested

bringing a photo of Woods to the hospital for possible
identification. The Court finds no error in the Magistrate
Judge’s conclusion that Ground Two should be dismissed
on the merits.

D. Ground Three: Batson violation
In Ground Three, Petitioner argues that the trial court
Batson v. Kentucky, 476 U.S. 79,
incorrectly applied
106 S. Ct. 1712, 90 L.Ed. 2d 69 (1986). Specifically,
Petitioner argues that the trial court required Petitioner to
demonstrate a pattern of race-based jury strikes before
shifting the burden to the state to explain its use of
peremptory challenges with a race-neutral explanation.1
The Magistrate Judge noted that as part of Petitioner’s
direct appeal, the First District Court of Appeals found
that the trial court erred because the opponent of a
peremptory challenge is not required to demonstrate a
pattern of discrimination. However, the First District
found that the trial court rectified the error by requiring
the state to provide a race-neutral explanation for the first
challenge after the state exercised a second peremptory
challenge of an African-American. See State v. Woods,
2014 WL 44377332014, *5 (Ohio Ct. App. Sept. 10,
2014).
*4 After reviewing the transcripts in the record, the
Magistrate Judge noted that while the trial court may have
corrected the error as to the second juror, the trial court
never found a satisfactory race-neutral explanation as to
the first juror. Instead, the first juror—Juror Number 7,
Ms. Laury—was excused.2 The Magistrate Judge
explained that assuming juror Ms. Laury could not have
been recalled, the appropriate remedy after sustaining the
Batson challenge would have been to move for a new
venire. The Magistrate Judge pointed out that counsel
never moved for a new venire or any other sort of relief
from the Batson error. The Magistrate Judge concluded
that under these circumstances, trying a case with a
Batson-error-infected jury was invited error because
counsel did not take steps to prevent the trial from going
forward. The Magistrate Judge explained that a party
cannot obtain federal habeas relief from invited error.
Petitioner objected to this conclusion, arguing that the
existence of an unmitigated Batson violation requires that
the conviction be vacated. In making this objection,
Petitioner relied upon the Sixth Circuit’s decision in
Drain v. Woods, 595 Fed.Appx. 558 (6th Cir. 2014). The

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

012

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

Sixth Circuit explained the Batson issue in Drain as
follows:

The Batson issue in Petitioner’s
case arises in an unusual posture
for appellate and habeas review:
the trial court in fact found that the
prosecutor
violated
Batson.
However, as every judge to reach
the issue in this case has
determined, the court then entirely
failed to cure the violation and
allowed Petitioner to be convicted
by a jury selected in violation of
Batson. The trial court raised the
Batson issue sua sponte after the
prosecutor used seven of her
peremptory strikes to eliminate
minority venire persons from the
jury. The prosecutor then offered
race-neutral reasons for each of the
strikes. The trial court considered
and rejected the prosecutor’s
explanations, announcing that it
found the prosecutor had excluded
black jurors based on their race. At
no point did defense counsel join in
the court’s Batson challenge or
offer
argument
against
the
prosecutor’s alleged race-neutral
reasons. Despite finding that the
prosecutor’s strikes were racially
motivated, the trial court failed to
cure the Batson violations that had
already occurred, requiring only
that the prosecutor approach the
court for permission before striking
any more African American or
minority
venire
persons.
Petitioner’s
counsel
remained
silent, failing to raise any objection
to this plainly inadequate remedy.

595 Fed.Appx. at 560-61. The Sixth Circuit first decided
that it would not raise the procedural default issue sua
sponte, and would instead review the Batson claim and
related ineffective assistance claim on the merits under

the AEDPA. Id. at 567. The Sixth Circuit set forth the
proper legal analysis of the Batson claim:
*5 Courts conduct a three-step analysis to determine
whether a Batson violation has occurred, the first step
of which asks whether the defendant has made “a prima
facie showing that a peremptory challenge has been
Miller–El v.
exercised on the basis of race.”
Cockrell, 537 U.S. 322, 328, 123 S.Ct. 1029, 154
Batson, 476 U.S. at
L.Ed.2d 931 (2003) (citing
96-97, 106 S.Ct. 1712). If that step is met, under step
two, “the burden of production shifts to the proponent
of the strike to come forward with a race-neutral
Purkett v. Elem, 514
explanation” for the strike.
U.S. 765, 767, 115 S.Ct. 1769, 131 L.Ed.2d 834
(1995). If such a race-neutral explanation is provided, a
court determines under step three “whether the
defendant has shown purposeful discrimination.”
Cockrell, 537 U.S. at 328-29, 123 S.Ct. 1029.
Id. at 568. Under this analysis, the Sixth Circuit found
that the first step was met based on Supreme Court
decisions which held that “[o]nce a prosecutor has offered
a race-neutral explanation for the peremptory challenges
and the trial court has ruled on the ultimate question of
intentional discrimination, the preliminary issue of
whether the defendant had made a prima facie showing
Hernandez v. New
becomes moot.” Id. at 570 (citing
York, 500 U.S. 352, 359, 111 S.Ct. 1859, 114 L.Ed.2d 395
(1991)). However, the Sixth Circuit went on to explain
that even setting aside the mootness argument, under
Batson: “[A] ‘pattern’ of strikes against black jurors
included in the particular venire” can, if present, “give
rise to an inference of discrimination” establishing a
Batson, 476 U.S at 97).
prima facie case.” Id. (quoting
The Sixth Circuit held that the record showed there was a
pattern of strikes in the record to give rise to an inference
of discrimination and satisfy the prima facie requirement.
Id. at 571. The Sixth Circuit then noted that at step two,
the prosecutor was given the opportunity to provide her
race-neutral explanations for each of the challenged
peremptory strikes; and at step three the trial court found
that the reasons offered by the prosecutor were not
credible and legitimate. Id. The Sixth Circuit determined
the trial court was correct, and the appellate court’s
determination that no Batson violation occurred was
unreasonable or contrary to clearly established federal
law. Id. at 574. However, the Sixth Circuit explained that
even though the trial court was correct in determining that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

013

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

the prosecutor violated Batson, “the trial court committed
constitutional error when it failed to remedy the
acknowledged Batson violations and allowed Petitioner to
be tried by a jury that had been selected by racially
impermissible means.” Id. at 580. The Sixth Circuit
explained: “[b]ecause the Michigan Court of Appeals did
not reach the issue of remedy, concluding as it did that no
Batson violation occurred, we do not apply AEDPA
deference to this issue.” Id.
The Sixth Circuit explained that once a Batson violation
has been found, it must be remedied. Id. The Sixth Circuit
outlined the two primary remedies for a Batson violation:
(1) disallowing the improper strike; and (2) discharging
Rice v.
the entire venire and starting anew. Id. (citing
White, 660 F.3d 242, 259 (6th Cir. 2011)). The Sixth
Circuit explained that the trial court implemented neither
of these remedies, and instead required the prosecutor to
request permission from the court before using any more
peremptory challenges against black jurors. Id. at 581.
The Sixth Circuit found this remedy inadequate, and
explained that “if stricken veniremembers are dismissed
and later found to be part of a pattern of discriminatory
strikes, the only remaining remedy for the Batson
violation would be to discharge the entire venire and start
People v. Knight, 473
the process anew.” Id. (quoting
Mich. 324, 701 N.W.2d 715, 729 (2005)). As a result, the
Sixth Circuit concluded that the district court was correct
in awarding a conditional writ of habeas corpus because
“[i]n the absence of any remedial action undertaken by
the trial court, the existence of an unmitigated Batson
violation requires that the conviction be vacated.” Id.
Rice, 660 F.3d at 260).
(quoting
*6 Petitioner argues that based on the holding in Drain,
the trial judge should have dismissed the venire.
In his Supplemental R&R, the Magistrate Judge
acknowledged this holding in Drain, but explained that
Petitioner did not raise this claim in his Petition, or on
direct appeal. The Magistrate Judge explained that the
only issue Petitioner raised was that “Batson does not
require a pattern of discrimination to set forth a prima
facie case or to require a race-neutral explanation from
the state.” The Magistrate Judge noted that Petitioner did
not claim that the trial court judge was constitutionally
required to sua sponte dismiss the venire. Therefore,
according to the Magistrate Judge, Petitioner’s Batson
claim was procedurally defaulted.

However, this Court reads the record differently.
Petitioner’s state court appellate brief states:

The appropriate remedy for these
errors is reversal. As this Court
held in Walker, the trial court’s
failure to require a race-neutral
justification
for
racially
discriminatory peremptory strikes
in the absence of a pattern of
race-based decisions constitutes
Walker, 139
structural error.
Ohio App.3d at 57-58; T.p. 1070;
White, 85 Ohio St.3d at
see also
436. The fact that the trial court
subsequently inquired into the
prosecutor’s reasons for exercising
its first strike against an
African-American
juror
is
insufficient. T.p. 1084. At that
point, the juror had already been
excused. T.p. 1070. Moreover, the
trial court found the state’s
race-neutral reason lacking and
sustained the Batson challenge, but
failed to remedy the violation by
recalling the juror. T.p. 1085. As in
Walker, Woods’ convictions must
be reversed.

(Doc. 10, PAGEID # 268). It is clear from this argument
in the brief that Petitioner claimed there was a Batson
violation and that the trial court failed to remedy the
violation by “recalling the juror.” Even though Petitioner
now espouses a different remedy—discharging the entire
venire—it makes no difference. If a court determines that
a Batson violation occurred at trial, “the only issue that
Rice v. White, 660
remains is the appropriate remedy.”
F.3d 242, 259 (6th Cir. 2011). Here, the First District
Court of Appeals concluded a Batson violation had
occurred, but concluded that the violation had been cured
when the trial court required the state to provide a
race-neutral explanation for the first challenge after the
state had exercised a second peremptory challenge of an
African American.3 State v. Woods, 2014 WL
44377332014, *5 (Ohio Ct. App. Sept. 10, 2014). The
First District concluded that trial court’s acceptance of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

014

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

those explanations was not clearly erroneous. Id.
However, as the Magistrate Judge explained, the record
shows that the trial court did not accept the explanations
the prosecutor provided for the first challenge. The Court
finds the First District’s finding that the trial court
accepted the explanation as to Ms. Laury to be an
42 U.S.C. §
unreasonable determination of fact under
Rice v. White, 660 F.3d at 259
2254(d)(2). Accord
(where the record made clear that the trial judge rejected
the prosecutor’s proffered race-neutral reasons for the
exclusion of two African-American jurors, the court
“unreasonably determined, in light of the record, that the
trial court did not discredit the prosecutor’s proffered
race-neutral reasons for striking the challenged jurors,
§ 2254(d)(2).”).
within the meaning of
*7 Because the Court has determined that the AEDPA’s
relitigation bar does not preclude consideration of
§ 2254(d), the next
Petitioner’s claim pursuant to
question is whether Petitioner can prevail on his
Rice, 660 F.3d at 259.
underlying constitutional claim.
Under the Batson three-step analysis, this Court must first
determine if the defendant has made a prima facie
showing that the prosecutor exercised a peremptory
Batson, 476 U.S. at
challenge on the basis of race.
96-98. Second, if the requisite showing has been made,
the burden shifts to the prosecutor, who must present a
Id. at 97-98.
race-neutral explanation for the strike.
However, as the Supreme Court has explained: “Once a
prosecutor has offered a race-neutral explanation for the
peremptory challenges and the trial court has ruled on the
ultimate question of intentional discrimination, the
preliminary issue of whether the defendant had made a
Hernandez v.
prima facie showing becomes moot.”
New York, 500 U.S. 352, 359, 111 S. Ct. 1859, 1866, 114
L.Ed. 2d 395 (1991).
The prosecutor’s explanation for striking Ms. Laury was:
We were concerned about her being a very
dual-oriented person.4 She is in a job where she’s in
quality assurance and she was—a time when I asked
her questions, she actually added additional
information to a question I asked, which kind of struck
me as being odd.
She also was a person that had experience with
misidentifications. And I had a concern in response to

some questions that were asked by Mr. Jackson as to
whether or not she would unfairly associate herself or,
at least, not give the State proper consideration with
respect to our side of the story on identification and
information.
She also made a statement that when Mr. Jackson was
asking her about what she would need. With respect to
making an identification, she made statements about
how she might—she might judge an identification in a
certain way, if there was evidence that established the
statute for certain procedure or if the dates that were
given didn’t match up to the identification. So that
concerned me about her ability to fairly consider the
State’s side of this, and that’s it.
(Doc. 10-26, PAGEID #1531-1532). The Court finds that
this constitutes a race-neutral explanation for striking Ms.
Rice v. Collins, 546 U.S. 333, 338, 126
Laury. Accord
S.Ct. 969, 163 L.Ed.2d 824 (2006) (“Although the
prosecutor must present a comprehensible reason, ‘[t]he
second step of this process does not demand an
explanation that is persuasive, or even plausible’; so long
as the reason is not inherently discriminatory, it
suffices.”).
At the third step, this Court must determine whether the
defendant has carried his burden of proving purposeful
Batson, 476 U.S. at 98. “This final
discrimination. See
step involves evaluating ‘the persuasiveness of the
justification’ proffered by the prosecutor, but ‘the ultimate
burden of persuasion regarding racial motivation rests
with, and never shifts from, the opponent of the strike.’ ”
Rice, 546 U.S. at 338 (quoting
Purkett v. Elem, 514
U.S. 765, 768, 115 S. Ct. 1769, 1771, 131 L.Ed. 2d 834
(1995)). “ ‘[T]he court presumes that the facially valid
reasons proffered by the [party exercising the peremptory
challenge] are true.’ ” Braxton v. Gansheimer, 561 F.3d
Lancaster v. Adams,
453, 459 (6th Cir. 2009) (quoting
324 F.3d 423, 433 (6th Cir. 2003)). Therefore, a Batson
challenge ultimately “comes down to whether the trial
court finds the prosecutor’s race-neutral explanations to
Miller–El v. Cockrell, 537 U.S. 322, 339,
be credible.”
123 S.Ct. 1029, 154 L.Ed.2d 931 (2003). “Credibility can
be measured by, among other factors, the prosecutor’s
demeanor; by how reasonable, or how improbable, the
explanations are; and by whether the proffered rationale
has some basis in accepted trial strategy.” Id. Trial-court
findings on the issue of discriminatory intent must be

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

015

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

afforded “great deference.”
Hernandez v. New York,
500 U.S. 352, 364-66, 111 S.Ct. 1859, 114 L.Ed.2d 395
(1991). As the Supreme Court has explained, this level of
deference “makes particular sense” because:
*8 [t]here will seldom be much evidence bearing on
that issue, and the best evidence often will be the
demeanor of the attorney who exercises the challenge.
As with the state of mind of a juror, evaluation of the
prosecutor’s state of mind based on demeanor and
credibility lies “peculiarly within a trial judge’s
province.”
Hernandez, 500 U.S. at 364-65 (quoting
Wainwright v. Witt, 469 U.S. 412, 428, 105 S.Ct. 844,
83 L.Ed.2d 841 (1985)). Therefore, in the absence of
exceptional circumstances, this Court defers to state-court
id. at 366.
factual findings. See
Here, the record is clear that the trial court rejected the
prosecutor’s reasons for striking Ms. Laury. The trial
court stated: “All right. I find that the State hasn’t given a
race-neutral explanation, so I’m gonna allow your Batson
challenge ...” (Doc. 10-26, PAGEID # 1533). While the
trial court did not provide much discussion of the reasons
behind this conclusion, the record shows that defense
counsel pointed out to the court that the prosecutor made
a total of three peremptory challenges, and two of those
challenges had been used to strike African-American
jurors. (Doc. 10-26, PAGEID # 1528). Defense counsel
also pointed out that Ms. Laury “said that she could be
fair and impartial. I think every juror on there raised their
hand when he asked if they were in an exactness
profession, all of the jurors are in those type of
professions.” (Doc. 10-26, PAGEID # 1532). This Court
finds that “[i]n light of the high degree of deference given
to the trial court’s credibility assessment, nothing in the
record suggests that the trial court clearly erred in finding
purposeful discrimination” in the striking Ms. Laury. See
Rice, 660 F.3d at 259. Therefore, this Court concludes,
as the trial court concluded, that Batson violation
occurred during jury selection.
“In the absence of any remedial action undertaken by the
trial court, the existence of an unmitigated Batson
violation requires that the conviction be vacated.”
Rice, 660 F.3d at 260 (citing
Batson, 476 U.S. at
100). Therefore, Petitioner’s Petition is GRANTED as to
Ground Three.

E. Ground Four: Non-disclosure of witnesses
In Ground Four, Petitioner claims that the trial court
violated his due process rights by erroneously certifying
two witnesses for non-disclosure. The Magistrate Judge
noted that this claim was presented to the First District
Court of Appeals, which decided that the trial court
properly concluded that these witnesses feared for their
safety and therefore it was not an abuse of discretion to
certify the witnesses under Ohio Criminal Rule 16(D)(1).
The Magistrate Judge concluded that the First District’s
decision was not contrary to or an objectively
unreasonable application of Supreme Court precedent.
The Magistrate Judge noted that the Supreme Court has
never held that the state has a constitutional obligation in
a criminal case to reveal the identity of its witnesses. The
Court finds no error in the Magistrate Judge’s conclusion
that Ground Four should be dismissed on the merits.

F. Ground Five: Expert witness
In Ground Five, Petitioner claims that the trial court
violated his due process rights by limiting the testimony
of his eyewitness identification expert witness and his
expert on the reliability of jailhouse informants.
With regards to the eyewitness identification expert—Dr.
Jennifer Dysart—the Magistrate Judge noted that
Petitioner raised this issue on direct appeal, and the First
District Court of Appeals concluded that the trial court
did not abuse its discretion in excluding part of Dr.
Dysart’s opinion on the ultimate issue of Chandler’s
credibility. The Magistrate Judge found that Petitioner has
not shown that the Supreme Court has held that an
ultimate opinion by an expert on the credibility of a
witness must be admitted.
*9 With regards to the expert witness on jailhouse
informants—law
professor
Christo
Lassiter—the
Magistrate Judge noted that this issue was also raised by
Petitioner on direct appeal, and the First District
concluded that Petitioner was permitted to cross-examine
the jailhouse informant and the proffered testimony would
not have further illuminated the subject for the jury. The
Magistrate Judge explained that the subject of reliability
of jailhouse informants relates to the credibility of
witnesses, which the law deems fully testable by
cross-examination. The Magistrate Judge stated that there

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

016

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

was no Supreme Court decision holding that such
testimony must be admitted.
Therefore, the Magistrate Judge concluded Ground Five
should be dismissed on the merits. The Court finds no
error in this conclusion.

G. Ground Seven: Victim’s medical and
psychological records
In Ground Seven, Petitioner claims that the trial court
erred by excluding Chandler’s medical and psychological
records which would have allegedly shown his state of
mind at the time of the offense, and when he later
identified Petitioner. The Magistrate Judge noted that
Petitioner raised this claim on direct appeal, and the First
District Court of Appeals held that it was not an abuse of
discretion for the trial court to exclude records from 2004
which indicated Chandler had psychiatric disorders and a
history of drug abuse. The First District explained that
Petitioner could not show a connection between
Chandler’s psychiatric condition in 2004 and his ability to
identify his assailant in 2010. The Magistrate Judge found
that Petitioner had not shown there is a constitutional
limit on the enforcement of state relevancy rules by the
exclusion of outdated medical records. Therefore,
Magistrate Judge concluded that Ground Seven should be
dismissed on the merits. The Court finds no error in this
conclusion.

H. Ground Eight: Ineffective assistance of trial
counsel
In Ground Eight, Petitioner claims that he received
ineffective assistance of trial counsel when his attorney
failed to raise a Weatherford v. Bursey claim in
suppression; failed to present exculpatory evidence; and
failed to properly instruct Petitioner’s expert on the facts
of the crime. The Magistrate Judge explained that
Petitioner raised this claim on direct appeal, and the First
District found no deficiency on the part of trial counsel.
The Magistrate Judge concluded that this decision was not
Strickland
an objectively unreasonable application of
v. Washington, 466 U.S. 668 (1984). The Court finds no
error in this conclusion.

I. Ground Nine: Improper jury instructions
In Ground Nine, Petitioner claims that the trial court erred
in instructing the jury by permitting an inference of guilt
from Petitioner’s flight without sufficient evidence of his
motive; and failing to instruct the jury on Ohio’s
identification statute. The Magistrate Judge noted that
Petitioner raised this claim on direct appeal, and the First
District Court of Appeals decided that the instructions
were proper. The Magistrate Judge noted that alleged
errors in jury instructions normally do not rise to the level
of federal constitutional violations. After reviewing the
instructions given, the Magistrate Judge found that there
was no error in the jury instructions which was cognizable
in federal habeas corpus, and therefore Ground Nine
should be dismissed. The Court finds no error in this
conclusion.

J. Ground Ten: Prosecutorial misconduct
In Ground Ten, Petitioner claims that he was deprived of
a fair trial by prosecutorial misconduct. The Magistrate
Judge noted that Petitioner raised this claim on direct
appeal, and the First District Court of Appeals held that
Petitioner was not prejudiced by the prosecutor’s
comments. The Magistrate Judge found that Petitioner’s
claimed instances of prosecutorial misconduct were either
properly decided by the First District or procedurally
defaulted. Therefore, the Magistrate Judge concluded that
Ground Ten should be dismissed. The Court finds no
error in this conclusion.

K. Ground Eleven: Insufficient evidence
*10 In Ground Eleven, Petitioner claims that the
convictions were both against the manifest weight of the
evidence and supported by insufficient evidence. The
Magistrate Judge explained that a manifest weight claim
is not cognizable in habeas corpus. As to the insufficient
evidence claim, the Magistrate Judge explained that the
state decisions are entitled to two levels of deference.
Tucker v. Palmer, 541 F.3d 652, 656 (6th Cir.
Accord
2008) (“Accordingly, the law commands deference at two
levels in this case: First, deference should be given to the
Jackson [v.
trier-of-fact’s verdict, as contemplated by
Virginia, 443 U.S. 307 (1979) ]; second, deference should
be given to the Michigan Court of Appeals’ consideration
of the trier-of-fact’s verdict, as dictated by AEDPA.”).
The Magistrate Judge identified evidence in the record

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

017

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

which would support Petitioner’s conviction, and
concluded that the First District’s holding that Petitioner’s
conviction was supported by sufficient evidence was not
Jackson v. Virginia,
an unreasonable application of
443 U.S. 307 (1979). Therefore, the Magistrate Judge
concluded that Ground Eleven should be dismissed on the
merits. The Court finds no error in this conclusion.

constitutional right” or that the issues presented in
those grounds for relief are “adequate to deserve
Slack v.
encouragement to proceed further.” See
McDaniel, 529 U.S. 473, 475 (2000) (citing
Barefoot v. Estelle, 463 U.S. 880, 893 & n.4
(1983)); see also 28 U.S.C. § 2253(c); Fed. R. App.
P. 22(b).
4. In addition, a certificate of appealability is not
issued with respect to the subclaims alleged in
Ground Eight of the petition which this Court has
concluded is waived and thus procedurally barred
from review, because under the first prong of the
Slack, 529 U.S.
two-part standard enunciated in
at 484-85, “jurists of reason” would not find it
debatable whether this Court is correct in its
procedural ruling. Because the first prong of the
Slack test has not been met, the Court need not
address the second prong of that test. Nevertheless,
assuming that “jurists of reason” could find the
procedural ruling debatable, the Court further finds
that the second prong of the Slack test has not been
met because “jurists of reason” would not find it
debatable whether petitioner has stated a viable
constitutional claim in the defaulted grounds for
id. at 484.
relief. See

III. CONCLUSION
Based on the foregoing, the Court ADOPTS in PART
and DECLINES to ADOPT in PART Magistrate
Judge’s July 14, 2017 R&R and August 15, 2017
Supplemental R&R (Docs. 19, 22). Accordingly, it is
hereby ORDERED that:
1. Petitioner’s Petition (Doc. 1) is GRANTED in
PART as to Ground Three;
a. The writ of habeas corpus is conditionally
granted as to habeas Ground Three. If no appeal is
taken, the State shall release Petitioner unless it
takes steps to re-try him within one hundred and
eighty (180) days of the date of this Opinion and
Order, otherwise within one hundred and eighty
(180) days after any appellate avenues are
exhausted and a mandate issued.

5. A certificate of appealability is issued with respect
to the claims alleged in Ground One; and

b. Respondent shall serve a copy of the Opinion
and Order to the appropriate State Court and
Prosecuting Attorney within fourteen (14) days of
entry of the Opinion and Order. Respondent must
file a proof of service with this Court.

6. This matter shall be CLOSED and
TERMINATED from the active docket of this
Court.

2. The remainder of Petitioner’s Petition (Doc. 1) is
DENIED and DISMISSED with PREJUDICE;

IT IS SO ORDERED.

3. A certificate of appealability is not issued with
respect to the claims alleged in Grounds Two, Four,
Five, Six, Seven, Eight, Nine, Ten and Eleven of the
petition, which were addressed on the merits herein,
in the absence of a substantial showing that
petitioner has stated a “viable claim of the denial of a

All Citations
Not Reported in Fed. Supp., 2018 WL 1531491

Footnotes

1

The trial transcript shows the following discussion of the Batson issue when the first challenge was made:
THE COURT: ... Mr. Prem, would you like to exercise a peremptory challenge?
MR. PREM: Yes, Your Honor. At this time we ask the Court to excuse and thank Juror Number 7, Ms. Laury.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

018

Woods v. Tibbals, Not Reported in Fed. Supp. (2018)

MS. CALAWAY: Sorry, but I’m going to make a Batson challenge. I know that he hasn’t demonstrated a pattern,
but the facts of this case are particularly significant because it’s a white victim and African-American defendant,
and there’s only three African-Americans in the veneer [sic], the rest are white. And so I think he should have to
raise a neutral reason for striking the juror.
THE COURT: Well, I think there has to have to be a pattern first. And I will cause [sic] the State to be mindful of
Batson, which I know they are, I assume they will be. But, at this point in time I may require him to state a raise
neutral reason, but there’s no pattern yet. So I’m going to reserve that statement for later.
(Doc. 10-26, PAGEID #1418-1419). Juror Number 7 was then excused. (Doc. 10-26, PAGEID #1419).
2

The record is somewhat difficult to read on this point. The second Batson challenge arose when the prosecutor used
a peremptory challenge to strike Juror Number 5, Ms. Gilbert. (Doc. 10-26, PAGEID #1527-1528). The prosecutor
then provided a race-neutral reason for striking Ms. Gilbert, which the court accepted. (Doc. 10-26, PAGEID #1531).
According to the transcript, the court then stated, “I’ll have you move just to make your record as well.” The
prosecutor then began discussing the race-neutral reasons for striking Ms. Laury. (Doc. 10-26, PAGEID #1531). Ms.
Laury was not identified in the discussion, but the prosecutor referred to her as being “in quality assurance.” Earlier
in the jury selection process, Ms. Laury stated that her work was “quality assurance for a bank.” (Doc. 10-25, PAGEID
#1239-1240). After the prosecutor’s explanation, the court stated:
All right. I find that the State hasn’t given a race-neutral explanation, so I’m gonna allow your Batson challenge,
except assuming the next juror is not subject to a cause challenge, this will be our panel, and I’m gonna seat two
alternates. Okay.
What I just said is totally inaccurate. You get one peremptory remaining.
(Doc. 10-26, PAGEID #1533). The court then excused Ms. Gilbert. (Doc. 10-26, PAGEID #1533).

3

After citing the three-part Batson test, the First District Court of Appeals ruled as follows:
Woods is correct in his assertion that the opponent of a peremptory challenge is not required to demonstrate a
pattern of discrimination.
State v. Walker, 139 Ohio App.3d 52, 56, 742 N.E.2d 1173 (1st Dist. 2000). As we
have held, “[t]he exercise of even one peremptory challenge in a purposefully discriminatory manner is a violation
of equal protection.” State v. Taylor, 1st Dist. Hamilton No. C–020475, 2004–Ohio–1494, ¶ 20, citing
State v.
Gowdy, 88 Ohio St.3d 387, 727 N.E.2d 579 (2000), and Walker, supra. Thus, the trial court did err in concluding
that Woods was required to demonstrate a discriminatory pattern.
But the court rectified its error by requiring the state to provide a race-neutral explanation for the first challenge
after the state had exercised a second peremptory challenge of an African–American. See
State v. Tibbs, 1st
Dist. Hamilton No. C–100378, 2011–Ohio–6716, ¶ 24. Specifically, the state cited answers given by the first
challenged juror suggesting that she would hold the state to a higher standard than required by law with respect
to identification testimony. As for the second juror, the state noted that she had described herself as an honest
person but then conceded that she had been convicted of an offense involving dishonesty. The trial court’s
acceptance of those explanations was not clearly erroneous. We overrule the second assignment of error.
State v. Woods, 2014 WL 44377332014, *5 (Ohio Ct. App. Sept. 10, 2014).

4

The Court assumes that this is a typographical error in the transcript and should read “detail-oriented person.”

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Case: 19-3254

Document: 33-1

Filed: 07/07/2020

Page: 1

(1 of 2)
019

No. 19-3254
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RICARDO WOODS,

FILED

Jul 07, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
BRIAN COOK, WARDEN,
Respondent-Appellee.

ORDER

BEFORE: BATCHELDER, GIBBONS, and SUTTON, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court.* No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

*

Judge Murphy recused himself from participation in this ruling.

Case: 19-3254

Document: 33-2

Filed: 07/07/2020

Page: 1

(2 of 2)
020

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: July 07, 2020

Ms. Jennifer M. Kinsley
Kinsley Law Office
P.O. Box 19478
Cincinnati, OH 45219
Re: Case No. 19-3254, Ricardo Woods v. Warden, SE Correctional Inst.
Originating Case No.: 1:16-cv-00643
Dear Ms. Kinsley,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Ms. Hilda Rosenberg
Ms. Stephanie Lynn Watson
Enclosure

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 1 of 44 PAGEID #: 4126
021

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
RICARDO WOODS,
Petitioner,

:

- vs -

Case No. 1:16-cv-643
District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

TERRY A. TIBBALS, Warden,
Allen Oakwood Correctional Institution,
:
Respondent.

REPORT AND RECOMMENDATIONS

This habeas corpus case, brought by Petitioner Ricardo Woods pursuant to 28 U.S.C. §
2254 with the assistance of counsel, is before the Court for decision on the merits. Woods filed
his Petition June 14, 2016 (ECF No. 1). On Magistrate Judge Litkovitz’s Order (ECF No. 4), the
Warden filed both the State Court Record (“Record,” ECF No. 10) and a Return of Writ (ECF
No. 11). Woods then filed his Reply (ECF No. 17). To help balance the workload among
Western Division Magistrate Judges, Judge Litkovitz transferred the case to the undersigned
(ECF No. 18).

Procedural History

Petitioner Ricardo Woods was indicted by a Hamilton County grand jury on January 24,
2011, on counts of purposeful murder, felony murder, and felonious assault, all with firearm
1

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 2 of 44 PAGEID #: 4127
022

specifications and with two counts of possessing a weapon n while under disability. The next
month he was indicted for felonious assault with a firearm specification on two other victims
arising out of the same incident. Woods was convicted by the trial judge on the weapons under
disability counts and by a jury on all other counts except for purposeful murder. He was
sentenced to consecutive terms of imprisonment of fifteen years to life for murder, eight years
each on the felonious assault counts, twenty-four months for having weapons under a disability,
and three years on the firearm specifications.
Woods appealed and the First District Court of Appeals affirmed. State v. Woods, 2014Ohio-3892 (1st Dist. Sept. 10, 2014), appellate jurisdiction declined, 142 Ohio St. 3d 1422
(2015), cert. den. sub nom. Woods v. Ohio, 136 S. Ct. 420 (2015). Following denial of certiorari,
Petitioner filed the instant habeas corpus petition, raising the following grounds for relief:
Ground One: The admission of the victim’s alleged identification
by blinking violated Woods’ Confrontation Clause rights, as the
statement did not satisfy the constitutional test for the dying
declaration exception.
Supporting Facts: The trial court erred in admitting testimony
regarding the identification of Woods by the victim, who was
paralyzed and unable to move other than by blinking at letters of
the alphabet and a single photograph shown to him by police.
Weeds was unable to cross-examine the victim regarding this
identification in violation of his right to confront the witnesses
against him. The identification was testimonial in nature because it
was created by police, recorded on video, and intended to be
introduced at trial. Woods therefore had a right to cross-examine
the victim before the identification was introduced. Moreover, the
statement was not a dying declaration because the victim’s death
was not actually imminent at the time it was made.
Ground Two: the victim’s identification was made under
suggestive circumstances and therefore presented a substantial
likelihood of misidentification in violation of due process.

2

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 3 of 44 PAGEID #: 4128
023

Supporting Facts: The victim’s identification occurred under
circumstances likely to give rise to a misidentification, including
factors related to both the initial observation (lack of lighting, short
duration, stress, etc.) and related to the time of the identification,
which occurred in a hospital while the victim was under the
influence of medications and was unable to communicate.
Ground Three: The trial court violated Woods’ right to a jury
trial by requiring Woods to demonstrate a pattern of race-based
jury strikes before shifting the burden to the State to offer a raceneutral explanation.
Supporting Facts: During jury selection, the prosecution struck a
number of African-American jurors. Woods is African-American
and his alleged victim was white. The trial court incorrectly
applied Batson by requiring Woods to demonstrate a pattern of
race-based jury strikes before shifting the burden to the state to
explain its use of peremptory challenges with a race-neutral
explanation.
Ground Four: The trial court erred in certifying several witnesses
for nondisclosure from Woods’ counsel in violation of Woods’ due
process rights.
Supporting Facts: Ohio law only permits the nondisclosure of
witnesses when there exists specific, articulable reasons to protect
the witnesses’ safety. The State failed to present a compelling case
that the witnesses would have been in danger if their identities had
been disclosed to Woods’ counsel, particularly given that one of
the witnesses was dead at the time the trial court certified his
identity for nondisclosure. This violated Woods’ due process
rights.
Ground Five: The trial court erred in limiting the testimony of
Wood’s expert witnesses in violation of Woods’ due process
rights.
Supporting Facts: The trial court limited the testimony of
Woods’ eyewitness identification expert regarding statistics and
national data on eyewitness misidentification, as well as regarding
stranger and non-stranger misidentification.
Ground Six: The trial court improperly permitted the testimony
of an unreliable jailhouse informant in violation of Woods’ Sixth
Amendment and due process rights.

3

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 4 of 44 PAGEID #: 4129
024

Supporting Facts: The trial court permitted a witness to testify
regarding statements Woods allegedly made to him during a very
brief stay together at the local jail. Jail records revealed that the
statement could not have been made at the time it was alleged, and
testimony of the police who took the jailhouse informant’s
statement indicated that his disclosure was premised solely on his
desire to broker a deal in his own criminal cases. Under these
circumstances, the testimony was unreliable and should not have
been admitted into evidence.
Ground Seven: The trial court violated Woods’ due process rights
by excluding medical and psychological records that would have
documented the victim’s state of mind.
Supporting Facts: The trial court precluded Woods from
admitting evidence in the form of medical and psychological
records that would have demonstrated his state of mind at the time
of the crime and at the time he made his alleged identification.
Ground Eight: Woods received ineffective assistance of trial
counsel in violation of his Sixth Amendment rights.
Supporting Facts: Woods’ attorneys failed to raise various
meritorious arguments, including a suppression claim under
Weatherford v. Bursey, in violation of his right to counsel. In
addition, Woods’ counsel failed to properly present exculpatory
evidence and further failed to properly instruct Woods’ expert on
the facts of the crime.
Ground Nine: The trial court erred in instructing the jury.
Supporting Facts: The trial court issued an instruction permitting
an inference of guilt based on Woods’ alleged flight absent
sufficient evidence of Woods’ motive. In addition, the trial court
failed to instruct the jury on the Ohio identification statute in
violation of his jury trial rights.
Ground Ten: Prosecutorial misconduct deprived Woods of this
right to a fair trial.
Supporting Facts: During trial, the prosecution committed
numerous instances of prejudicial misconduct, including lying to
the trial court regarding the safety of a witness who was already
deceased and by commenting upon Woods’ compliance with an
evidentiary ruling as evidence of guilt.

4

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 5 of 44 PAGEID #: 4130
025

Ground Eleven: Woods’ convictions were not supported by
sufficient evidence and were against the weight of the evidence in
violation of his due process rights.
Supporting Facts: The only evidence connecting Woods to the
crimes was the unreliable and untested identification by the victim,
who allegedly blinked at a single photograph while he was in the
hospital, on medications, and paralyzed. Woods’ conviction is
therefore not supported by sufficient evidence.
(Petition, ECF No. 1 and 1-1).

Analysis

Ground One: Confrontation Clause Violation

In his First Ground for Relief, Woods claims the trial court violated his rights under the
Confrontation Clause when it admitted into evidence an identification of him as the offender
produced by having the murder victim, Chandler, blink his eyes in response to certain stimuli.
Chandler had died by the time of trial and was not available for cross-examination.
This claim was presented on direct appeal as part of the first assignment of error and
decided as follows:
[*P17] In his first assignment of error, Woods contends that the

trial court erred in admitting into evidence Chandler's
identification of Woods as the perpetrator. We first address
Woods's argument that the admission of the identification violated
his rights under the Confrontation Clause of the United States
Constitution and that the identification constituted inadmissible
hearsay.
[*P18] The Confrontation Clause of the Sixth Amendment

generally prohibits the admission of testimonial statements of a
5

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 6 of 44 PAGEID #: 4131
026

witness who did not testify at trial, unless the witness was
unavailable for trial and the defendant had had the prior
opportunity to cross-examine the witness. Crawford v.
Washington, 541 U.S. 36, 68, 124 S.Ct. 1354, 158 L.Ed.2d 177
(2004).
[*P19] But in Crawford, the court held that a dying declaration
was one exception to this rule of inadmissibility. Id. at 56, fn. 6.
As this court has recently held, dying declarations may be admitted
as an exception to the rule set forth in Crawford, irrespective of
whether the declaration is considered testimonial. State v.
Kennedy, 2013-Ohio-4221, 998 N.E.2d 1189, ¶ 64 (1st Dist.).
[*P20] In Kennedy, we held that Evid.R. 804(B)(2) comports
with the common-law definition of a dying declaration when
analyzing the exception to the rule in Crawford. Id. at ¶
67. Evid.R. 804(B)(2) provides that the following is not excluded
by the hearsay rule if the declarant is unavailable as a witness:

[i]n a prosecution for homicide or in a civil action or
proceeding, a statement made by a declarant, while
believing that his or her death was imminent, concerning
the cause or circumstances of what the declarant believed
to be his or her impending death.
[*P21] In Kennedy, this court stated that, to qualify as a dying
declaration under the rule, "the evidence must show that the
deceased's statements were made under a sense of impending death
that excluded from the mind of the dying person all hope or
expectation of recovery." Kennedy at ¶ 41, citing State v. Ray,
189 Ohio App.3d 292, 2010-Ohio-2348, 938 N.E.2d 378, ¶ 40
(8th Dist.); State v. Washington, 1st Dist. Hamilton No. C090561, 2010-Ohio-3175, ¶ 21; State v. Ross, 7th Dist.
Mahoning Nos. 96-CA-247 and 96-CA-251, 1999 Ohio App.
LEXIS 4859 (Oct. 12, 1999), cited in State v. McGee, 7th Dist.
Mahoning No. 07-MA-137, 2009-Ohio-6397, ¶ 33. The declarant

is not required to state that he believes he will not recover, as "the
necessary state of mind may be inferred from circumstances at the
time of the declaration." Kennedy at ¶ 42, citing Ross, supra.
[*P22] In this case, Chandler's statement was properly admitted

as a dying declaration. According to Father Seher, Chandler was
convinced that he was not going to survive his injuries, as
Chandler requested the sacrament of Last Rites. And while
Chandler's family had made contingent plans for rehabilitation in
6

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 7 of 44 PAGEID #: 4132
027

case Chandler would survive, the state presented ample evidence
that Chandler himself had no hope of recovery.
State v. Woods, supra.
When a state court decides on the merits a federal constitutional claim later presented to a
federal habeas court, the federal court must defer to the state court decision unless that decision
is contrary to or an objectively unreasonable application of clearly established precedent of the
United States Supreme Court. 28 U.S.C. ' 2254(d)(1); Harrington v. Richter, 562 U.S. 86, 131
S. Ct. 770, 785 (2011); Brown v. Payton, 544 U.S. 133, 140 (2005); Bell v. Cone, 535 U.S. 685,
693-94 (2002); Williams (Terry) v. Taylor, 529 U.S. 362, 379 (2000).
The Warden argues the First District’s decision on this claim is entitled to deference
under the AEDPA. Petitioner acknowledges the deferential AEDPA standard, but asserts that
the First District’s decision is contrary to clearly established Supreme Court precedent (Reply,
ECF No. 17, PageID 3974-77, relying on Giles v. California, 554 U.S. 353 (2008).
In Giles the victim’s out-of-court statements were admitted by the California trial court to
prove Giles had killed him on the theory that Giles had forfeited his right to object on the basis
of the witness’s unavailability because he had procured that unavailability by killing the witness.
Justice Scalia, author of Crawford v. Washington, 541 U.S. 36 (2004), wrote for the Court in
Giles and explained the difference at common law and therefore under the Confrontation Clause
of the exceptions to confrontation for dying declarations and witness unavailability procured by
the defendant. The Court held that the second exception for defense-procured unavailability
would not meet the Confrontation Clause standard without proof that the intent of the defendant
was to silence the witness. There is no holding in Giles about the scope of the dying declaration
exception to the hearsay rule. Rather the holding is about the defense-procured unavailability
exception which is not at issue here. The discussion of the dying declaration exception in Giles
7

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 8 of 44 PAGEID #: 4133
028

is dicta.
The only other Supreme Court case about the dying declaration exception is Shepard v.
United States, 290 U.S. 96 (1933). In that case Charles Shepard was convicted of murdering his
wife on the military reservation at Fort Riley, Kansas1. The victim suspected that her husband
had poisoned her and voiced her suspicion to a nurse. Justice Cardozo for the Supreme Court
analyzed the case, which was on direct appeal rather than collateral attack, in terms of the
common law of evidence as to what constituted a dying declaration. The opinion nowhere so
much as mentions the Confrontation Clause.
In arguing this Ground for Relief in the Reply, Petitioner focuses on facts which
purportedly show Chandler’s death was not imminent nor did he believe it was imminent at the
time he made the identification. He concludes:
The Ohio court of appeals resolved the inquiry using the wrong
standard for what constitutes a dying declaration under
Confrontation Clause jurisprudence. Despite the Supreme Court’s
clear pronouncement in Giles that a statement must be made when
the declarant’s death was actually imminent to constitute a dying
declaration at common law, the Ohio court of appeals failed to
consider whether Chandler’s death was looming at the time he
identified Woods. State v. Woods, 2014-Ohio-3892, 2014 WL
4437733, at *3. In fact, the only factor the court considered was
whether Chandler believed he was in danger of dying, a subject
about which the evidence at trial was sharply divided. Id. In so
doing, the court interpreted the dying declaration exception to
confrontation to be co-terminous with the state evidentiary rule
governing the dying declaration hearsay exception and relied
heavily on prior state court decisions discussing the contours of the
hearsay rule. Id. (citing State v. Kennedy, 2013-Ohio-4221, 998
N.E.2d 1189 (Ohio Ct. App. 2013).) Ironically, the state court did
not even once cite Giles, the Court’s leading authority on the
subject, much less address its requirements for the common law
confrontation exception. Id. The state court ruling therefore
conflicts with direct precedent of the Supreme Court sufficient to
warrant a writ of habeas corpus.
1

The murder was a federal crime because committed within the exclusive territorial jurisdiction of the United
States. 18 U.S.C. § 7.

8

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 9 of 44 PAGEID #: 4134
029

(Reply, ECF No. 17, PageID 3976.)
But the Supreme Court in Giles did not “create a standard for what constitutes a dying
declaration under Confrontation Clause jurisprudence.” Rather, its discussion of the parameters
of the dying declaration was limited to one paragraph
We have previously acknowledged that two forms of testimonial
statements were admitted at common law even though they were
unconfronted. See id. [Crawfprd], at 56, n. 6, 62, 124 S. Ct.
1354, 158 L. Ed. 2d 177. The first of these were declarations
made by a speaker who was both on the brink of death and aware
that he was dying. See, e.g., King v. Woodcock, 1 Leach 500, 501504, 168 Eng. Rep. 352, 353-354 (1789); State v. Moody, 3 N. C.
31 (Super. L. & Eq. 1798); United States v. Veitch, 28 F. Cas.
367, 367-368, 1 Cranch C.C. 115, F. Cas. No. 16614 (No.
16,614) (CC DC 1803); King v. Commonwealth, 4 Va. 78, 80-81
(Gen. Ct. 1817). Avie [the victim]did not make the unconfronted

statements admitted at Giles' trial when she was dying, so her
statements do not fall within this historic exception.
554 U.S. at 358-59. The balance of the opinion was devoted to discussing the defense-procured
unavailability exception, at points contrasting it with the dying declaration exception.
In determining whether a state court decision is contrary to or an
unreasonable application of clearly established Supreme Court
precedent, a federal court may look only to the holdings, as
opposed to the dicta, of the Supreme Court's decisions as of the
time of the relevant state court decision. Lockyer v. Andrade, 538
U.S. 63, 71, 123 S. Ct. 1166, 155 L. Ed. 2d 144 (2003); Williams,
529 U.S. at 412.
Goodell v. Williams, 643 F.3d 490 (6th Cir. 2011). Because Justice Scalia’s description of the
dying declaration exception at common law is dicta, it cannot control here.
The First District had to decide both the constitutional claim and the Ohio evidentiary
claim, to wit, that Chandler’s “statement” did not come within the dying declaration rule as
codified at Ohio R. Evid. 804(B)(2). Respondent argues, correctly, that this Court may not in a
habeas corpus case review the correctness of the Ohio evidence law ruling (Return, ECF No. 11,
9

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 10 of 44 PAGEID #: 4135
030

PageID 3909). Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).
Respondent then argues that “the law on admission of dying declarations under the
Confrontation Clause is not clearly established in the Supreme Court. . . .” (Return, ECF No. 11,
PageID 3909). Petitioner turns this argument on its head to claim that, if the Warden is correct,
“the state court should not have created such an exception. . . .” (Reply, ECF No. 17, PageID
3977). On the contrary, the Supreme Court recognized the dying declaration as an exception to
the Confrontation Clause already in Crawford. It has just not as yet “constitutionalized” the
parameters of that exception. As the Sixth Circuit held in Walker v. Harry, 462 Fed. Appx. 543
(6th Cir. 2012), the Supreme Court has “refrained from ruling on the status of dying declarations
under the Confrontation Clause.” Id. at 545.
Because there is no Supreme Court holding on the constitutional parameters of the dying
declaration hearsay exception under the Confrontation Clause, the First District’s decision is
neither contrary to nor an objectively unreasonable application of clearly established Supreme
Court precedent. Woods’ First Ground for Relief should be dismissed on the merits.

Ground Two: Unconstitutional Pre-Trial Identification

`

In his Second Ground for Relief, Woods argues his identification by Chandler occurred

under suggestive circumstances and its admission at trial therefore violated his due process
rights.
Woods included this claim as the second part of his First Assignment of Error on direct
appeal and the First District decided it as follows:
[*P23] Woods next argues that the trial court erred in overruling
his motion to suppress the identification because the procedure

10

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 11 of 44 PAGEID #: 4136
031

employed by the investigating officers was unduly suggestive.
[*P24] Appellate review of a motion to suppress presents a
mixed question of law and fact. State v. Burnside, 100 Ohio
St.3d 152, 2003-Ohio-5372, 797 N.E.2d 71, ¶ 8. An appellate

court must accept the trial court's findings of fact if they are
supported by some competent, credible evidence. Id. Accepting
those facts as true, the appellate court must then independently
determine, without deference to the trial court's judgment, whether
the facts satisfy the applicable legal standard. Id.
[*P25] To suppress identification testimony, the trial court must

find that the identification procedure "was so impermissibly
suggestive as to give rise to a very substantial likelihood of
irreparable misidentification." Neil v. Biggers, 409 U.S. 188, 197,
93 S.Ct. 375, 34 L.Ed.2d 401 (1972), quoting Simmons v.
United States, 390 U.S. 377, 384, 88 S.Ct. 967, 19 L.Ed.2d
1247 (1968); State v. Green, 117 Ohio App.3d 644, 652, 691
N.E.2d 316 (1st Dist.1996). "Reliability is the linchpin in

determining the admissibility of identification testimony * * *."
Manson v. Brathwaite, 432 U.S. 98, 114, 97 S.Ct. 2243, 53
L.Ed.2d 140 (1977). Thus, even if the identification procedure

was suggestive, so long as the challenged identification was
reliable, it is admissible. Id.; State v. Seay, 1st Dist. Hamilton
No. C-090233, 2010-Ohio-896, ¶ 29.
[*P26]

In this case, the trial court properly held that the
identification was reliable. The state presented evidence that
Chandler had known Woods for a long period of time and had
repeatedly purchased drugs from Woods in the area where the
shooting had occurred. And it was through Chandler's prompting
that the investigating officers had brought the photograph of
Woods to the hospital.
[*P27] Nonetheless, Woods contends that the identification was
subject to suppression in light of the investigating officers' alleged
failure to comply with the identification procedures set forth in
R.C. 2933.83. But as this court has held, an alleged violation of
R.C. 2933.83 is not a proper basis for suppression, as the remedy
for such a violation is cross-examination about the police
procedures at trial. State v. Cook, 1st Dist. Hamilton No. C130242, 2013-Ohio-5449, ¶ 33, citing State v. Ruff, 1st Dist.
Hamilton No. C-110250, 2012-Ohio-1910, ¶ 5; R.C.
2933.83(C)(1). Accordingly, the trial court did not err in
admitting the identification, and we overrule the first assignment of
error.

11

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 12 of 44 PAGEID #: 4137
032

State v. Woods, supra.
In arguing this Ground for Relief in the Reply, Petitionerrelies heavily on Manson v.
Brathwaite, 432 U.S. 98 (1977), but accuses the First District of “fail[ing] to even cite Manson”
and “relying instead on an Ohio statute that sets forth a procedure for police to follow in
administering certain types of photo lineups.” (Reply, ECF No. 17, PageID 3978.) With respect,
that is a complete misreading of the First District’s decision. It did cite Manson at ¶ 25,
reproduced verbatim above, as the key Supreme Court decision. It did not rely on Ohio Revised
Code § 2933.83 as a basis for affirmance, but rather rejected Woods’ claim, made on his behalf
by the same attorney who represents him in this habeas corpus proceeding, that failure of the
police to conform to the statute was a basis for suppression. State v. Woods, supra, at ¶ 27.
Woods correctly states the factors a court must consider in determining whether to
suppress a pre-trial identification as unreliable (Reply, ECF No. 17, PageID 3977). The Supreme
Court held in Neil v. Biggers, 409 U.S. 188 (1972):
[T]he factors to be considered in evaluating the likelihood of
misidentification include the opportunity of the witness to view the
criminal at the time of the crime, the witness' degree of attention,
the accuracy of the witness' prior description of the criminal, the
level of certainty demonstrated by the witness at the confrontation,
and the length of time between the crime and the confrontation.
409 U.S. at 199; accord, Manson v. Brathwaite, 432 U.S. 98, 114 (1977)2.
In upholding the identification, the First District noted that the admissibility of a pre-trial
identification is a mixed question of law and fact. It found that the trial court had evidence

2

Woods notes the evolving scientific literature on eyewitness perception and identification and the consequent
revisions of identification standards in New Jersey and Oregon (Reply, ECF No. 17, PageID 3977, n. 3). After
AEDPA, however, habeas courts do not fulfill the function apparently envisioned for them by the Supreme Court in
Fay v. Noia, 372 U.S. 391 (1963), of elaborating constitutional standards set by the Court. Rather, we are limited to
deciding whether state court decisions contravene what the Supreme Court has already decided.

12

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 13 of 44 PAGEID #: 4138
033

before it from which it could properly have reached a reliability determination.3 While there was
little time for Chandler to see Woods at the time of the shooting, there was evidence to support
the finding that Chandler had purchased drugs from Woods in the area where the shooting
occurred on a number of prior occasions. Thus this was not a “stranger” crime where the
likelihood of misidentification is much higher. Woods emphasizes that five days that elapsed
between the shooting and the identification, but that is a factor much more relevant in stranger
crimes. Finally, the First District noted that it was Chandler who suggested bringing a copy of
Woods’ photograph to the hospital for possible identification.
In applying Neil and Manson, a state court need not write at length. Here the Petitioner
has failed to show that the First District’s conclusion on reliability of the identification was
contrary to or an objectively unreasonable application of those two cases. Ground Two should
be dismissed on the merits.

Ground Three: Batson Violations

In his Third Ground for Relief, Woods asserts the trial court “incorrectly applied Batson
[v. Kentucky, 476 U.S. 79 (1986)] by requiring Woods to demonstrate a pattern of race-based
jury strikes before shifting the burden to the state to explain its use of peremptory challenges
with a race-neutral explanation.” (Petition, ECF No. 1, PageID 9).
This claim was presented to the First District as Woods’ Second Assignment of Error and
decided as follows:
[*P28] In his second assignment of error, Woods argues that the

state exercised peremptory challenges during voir dire in violation
3

The trial court found the police procedure was suggestive and the First District implicitly assumed that finding was
correct.

13

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 14 of 44 PAGEID #: 4139
034

of Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d
69 (1986). After the first peremptory challenge of a prospective
African-American juror, the trial court stated that Woods had not
yet established a pattern of discrimination. Woods argues that he
was not required to establish a pattern of discrimination to trigger
the state's burden to provide a race-neutral explanation for the
challenge.
[*P29] In Batson, the court created a three-part test to determine
if the state has used peremptory challenges in a discriminatory
manner. The opponent of the challenge must first make a prima
facie showing of discriminatory intent. See State v. Were, 118
Ohio St.3d 448, 2008-Ohio-2762, 890 N.E.2d 263, ¶ 61. If the
trial court finds the first requirement fulfilled, the state must then
provide a racially neutral explanation for the challenge. Id. Finally,
the court must decide whether, under all of the circumstances, the
opponent has demonstrated racial discrimination. Id. A trial court's
finding that the opponent has failed to prove discriminatory intent
will not be reversed unless it is clearly erroneous. State v.
Hernandez, 63 Ohio St.3d 577, 583, 589 N.E.2d 1310 (1992),
following Hernandez v. New York, 500 U.S. 352, 369, 111 S.Ct.
1859, 114 L.Ed.2d 395 (1991).
[*P30] Woods is correct in his assertion that the opponent of a
peremptory challenge is not required to demonstrate a pattern of
discrimination. State v. Walker, 139 Ohio App.3d 52, 56, 742
N.E.2d 1173 (1st Dist.2000). As we have held, "[t]he exercise of
even one peremptory challenge in a purposefully discriminatory
manner is a violation of equal protection." State v. Taylor, 1st
Dist. Hamilton No. C-020475, 2004-Ohio-1494, ¶ 20, citing
State v. Gowdy, 88 Ohio St.3d 387, 2000 Ohio 355, 727 N.E.2d
579 (2000), and Walker, supra. Thus, the trial court did err in

concluding that Woods
discriminatory pattern.

was

required

to

demonstrate

a

[*P31] But the court rectified its error by requiring the state to
provide a race-neutral explanation for the first challenge after the
state had exercised a second peremptory challenge of an AfricanAmerican. See State v. Tibbs, 1st Dist. Hamilton No. C-100378,
2011-Ohio-6716, ¶ 24. Specifically, the state cited answers given
by the first challenged juror suggesting that she would hold the
state to a higher standard than required by law with respect to
identification testimony. As for the second juror, the state noted
that she had described herself as an honest person but then
conceded that she had been convicted of an offense involving
dishonesty. The trial court's acceptance of those explanations was
not clearly erroneous. We overrule the second assignment of error.

14

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 15 of 44 PAGEID #: 4140
035

State v. Woods, supra.
Batson v. Kentucky, 476 U.S. 79 (1986), prohibits race-based peremptory challenges by a
prosecutor. A trial court must use a three-step process to evaluate a Batson claim. First, the
opponent must make a prima facie showing that the proponent of the strike has exercised a
peremptory challenge on the basis of race. The burden then shifts to the proponent to articulate a
race-neutral reason for the challenge. Finally, the trial court must determine if the opponent has
carried his burden of proving purposeful discrimination. Purkett v. Elem, 514 U.S. 765 (1995);
Hernandez v. New York, 500 U.S. 352 (1991). To make a prima facie showing, a defendant must
show that he is a member of a cognizable racial group, that a challenge has been exercised to
remove a venireperson of the same race, and any additional facts and circumstances from which
an inference could be drawn that the prosecutor had used the peremptory challenge in a racebased manner. Batson, 476 U.S. at 79. The defendant is entitled to rely on the fact that the
peremptory challenge process is one in which those who are of a mind to discriminate on the
basis of race are able to do so. Id. A trial judge’s conclusion that the challenge was race-neutral
must be upheld unless it is clearly erroneous. Hernandez; supra; United States v. Tucker, 90
F.3d 1135, 1142 (6th Cir. 1996); United States v. Peete, 919 F.2d 1168, 1179 (6th Cir. 1990)
The fact that the evidence would have supported a challenge for cause is sufficient to
demonstrate that it is race-neutral. Batson, 479 U.S. at 97. A Batson error is never harmless, but
rather is a structural error. United States v. McFerron, 163 F.3d 952 (6th Cir. 1998), relying on
Arizona v. Fulminante, 499 U.S. 279 (1991).
The First District found the trial court erred in the process it used when the first
peremptory challenge was made to an African-American venireperson, but that it corrected that
error by requiring a race-neutral explanation as to both peremptorily-challenged African15

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 16 of 44 PAGEID #: 4141
036

Americans when the second challenge occurred State v. Woods, supra, at ¶¶ 30-31.
The prosecutor’s first peremptory challenge was exercised as to Prospective Juror No. 7,
Ms. Laury (Tr. Tr. ECF No. 10-26, PageID 1418). Defense counsel Calaway immediately made
a Batson challenge, stating “I know that he [the prosecutor] hasn’t demonstrated a pattern, but
the facts of this case are particularly significant because it’s a white victim and AfricanAmerican defendant and there’s only three African-Americans in the veneer [sic], the rest are
white.” The trial judge responded that
Well, I think there has to have to be a pattern first. And I will cause
the State to be mindful of Batson, which I know they are, I assume
they will be.
But, at this point in time I may require him to state a raise [sic]
neutral reason, but there's no pattern yet. So I'm going to reserve
that statement for later.
Id. at PageID 1418-19. However, Ms. Laury was then excused.
The prosecutor next sought to exercise a peremptory challenge as to Prospective Juror
Number 5, Ms. Gilbert. Id. at PageID 1528. Ms. Calaway raised a Batson challenge and the trial
court required a race-neutral explanation. Id. Mr. Prem gave what is concededly a race-neutral
explanation as to Ms. Gilbert and she was excused. Then the prosecutor proceeded to give what
purported to be a race-neutral explanation fort excusing Ms. Laury4. At the conclusion, the judge
stated “I find that the State hasn't given a race-neutral explanation, so I'm gonna allow your
Batson challenge, . . .” Id. at PageID 1533.
The Warden misreads the record in this regard, claiming the trial judge found a
satisfactory race-neutral explanation had been given as to both jurors (Return, ECF No. 11,
PageID 3918). That reading of the record is flatly contradicted by the judge’s finding just

4

Although neither her name nor juror number is mentioned at this point in the transcript, it is clear from the context
that the prosecutor is speaking about her.

16

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 17 of 44 PAGEID #: 4142
037

quoted.
Woods complains that “after making this finding, the court permitted the juror to be
excused anyway and engaged in no remedial efforts to correct the error or to ensure a raciallybalanced jury.” (Reply, ECF No. 17, PageID 3983, citing Tr. Tr. ECF No. 10-10, PageID 153334). Actually the record reflects the juror had been excused before this finding. After the first
Batson challenge was made, Judge Myers excused Ms. Laury and asked her to go with the
bailiff, saying her services would not be needed any more today. (Tr. Tr. ECF No. 10-16,
PageID 1419).
Woods has not suggested what the trial judge should have done at that point to correct the
Batson error. It might have been possible to find Ms. Laury and seat her as a juror. The record
does not reflect whether venirepersons in Hamilton County, once they are excused from one jury,
are returned to a jury pool from which they can be called to other courtrooms for possible
service, which is the process in some urban counties in Ohio. The other possible cure would
have been to declare a mistrial and start over with a new venire. As far as the record shows,
neither the trial judge nor defense counsel considered either one of these possibilities. Just as he
does here, Woods made no suggestion to the First District about what should have been done
once Judge Myers sustained the Batson challenge to the peremptory excuse of Ms. Laury, stating
that the only appropriate remedy for these errors is reversal (Appellant’s Brief, Record, ECF No.
10, PageID 268.)
Assuming Ms. Laury could not have been recalled, the appropriate remedy after
sustaining the Batson challenge would have been a to move for a new venire.

Woods

emphasizes that Batson error is structural error, but that error only infects the verdict when a
person has been tried by a jury from which someone has been unconstitutionally excluded under

17

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 18 of 44 PAGEID #: 4143
038

Batson. There was time and opportunity to correct the Batson error before the jury was sworn,
but Woods’ counsel never moved for a new venire or any other sort of relief from the Batson
error.
Under these circumstances, trying the case with a Batson-error-infected jury was invited
error because defense counsel took no steps to prevent the trial from going forward. A party
cannot obtain federal habeas corpus relief from invited error. Schoenberger v. Russell, 290 F.3d
831, 835 (6th Cir. 2002); Fields v.Bagley, 275 F.3d 478, 486 (6th Cir. 2001).
"The doctrine of 'invited error' refers to the principle that a party
may not complain on appeal of errors that he himself invited or
provoked the court . . . to commit." Harvis v. Roadway Express
Inc., 923 F.2d 59, 60-61 (6th Cir. 1991). This circuit has referred to
the doctrine as "a cardinal rule of appellate review," and federal
appellate courts have applied the doctrine to a "wide range of
conduct." Fryman v. Fed. Crop Ins. Corp., 936 F.2d 244, 249 (6th
Cir. 1991) (quoting Harvis, 923 F.2d at 60) (internal quotation
marks omitted)).
Bavelis v. Doukas (In re Bavelis), 773 F.3d 148, 157 (6th Cir. 2014).
On this basis, Ground Three should be dismissed on the merits.

Ground Four: Erroneous Non-Disclosure of Witnesses

In his Fourth Ground for Relief, Woods claims the trial court violated his due process
rights by erroneously certifying that the State need not identify certain witnesses before trial.
Woods presented this claim to the First District as his Third Assignment of Error and it was
decided as follows:
[*P32] In his third assignment of error, Woods maintains that
the trial court erred in certifying two state's witnesses for
nondisclosure.

18

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 19 of 44 PAGEID #: 4144
039

[*P33] Crim.R. 16 governs discovery in general and witness
disclosure in particular. Crim.R. 16(I) states that "[e]ach party
must provide to opposing counsel a written witness list, including
names and addresses of any witness it intends to call in its case-inchief, or reasonably anticipates calling in rebuttal or surrebuttal."
But under Crim.R. 16(D)(1), "[t]he prosecuting attorney shall
certify to the court that the prosecuting attorney is not disclosing
material" that is otherwise subject to disclosure if he "has
reasonable, articulable grounds to believe that disclosure will
compromise the safety of a witness * * *."
[*P34] Among the reasons for nondisclosure, the prosecution
may cite "the nature of the case, the specific course of conduct of
one or more parties, [and] threats or prior instances of witness
tampering or intimidation * * *." Crim.R. 16(D). The trial court
may not reject the prosecuting attorney's certification for
nondisclosure unless it finds that the prosecution has abused its
discretion. Crim.R. 16(F). This court, in turn, reviews a trial court's
decisions concerning discovery—including issues of witness
disclosure—under an abuse-of-discretion standard. State v.
Williams, 1st Dist. Hamilton No. C-130277, 2014-Ohio-1526, ¶
14.
[*P35] In the case at bar, there was no abuse of discretion. With

respect to one of the witnesses, the trial court conducted a hearing
in which the state presented case-specific evidence that disclosure
of the witness's identity would threaten his safety and the safety of
his family and friends. This witness was in fact murdered before
trial. And as the state correctly asserts, there was no showing that
the witness in question would have provided exculpatory evidence
or that Woods was otherwise prejudiced by the nondisclosure.
[*P36] The second witness subject to a nondisclosure order was

Beard. The assistant prosecutor once again provided case-specific
information that the witness feared for his safety, and the court
ordered the state to provide Beard's identity to the defense no later
than the commencement of trial, as provided in Crim.R. 16(F)(5).
Woods has not demonstrated an abuse of discretion on the part of
the prosecuting attorney or the trial court, and we overrule the third
assignment of error.
State v. Woods, supra.
Respondent asserts there is no federal due process right to have state discovery rules

19

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 20 of 44 PAGEID #: 4145
040

enforced (Return, ECF No. 11, PageID 3919). Woods replies that there is indeed such a right,
relying on Wardius v. Oregon, 412 U.S. 470 (1973). The holding in Wardius, however, is much
narrower than that. In that case the Supreme Court held that enforcement of a notice of alibi rule
against a defendant was unconstitutional in the absence of a reciprocal right to discover rebuttal
witnesses from the State.
Albeit briefly, Woods presented this claim in part as a constitutional claim to the First
District. (Appellant’s Brief, Record, ECF No. 10, PageID 269, citing Wardius). Although the
First District did not discuss Wardius, because the due process claim was fairly presented to it, it
must be treated as having decided that claim. Harrington v. Richter, 562 U.S. 86, 103 (2011);
Ross v. Pineda, 2013 U.S. App. LEXIS 25481 (6th Cir. 2013), quoting Johnson v. Williams, 133
S. Ct. 1088, 1096 (2013)(emphasis added). This Court therefore reviews the claim applying
AEDPA deference.
Woods has not shown that the First District’s decision of this claim was contrary to or an
objectively unreasonable application of Supreme Court precedent. The Supreme Court has never
held that the State has a constitutional obligation in a criminal case to reveal the identity of its
witnesses. Ground Four should be dismissed with prejudice on the merits.

Ground Five: Unconstitutional Restriction on Defense Expert

In his Fifth Ground for Relief, Woods asserts the trial court violated his due process
rights by limiting the testimony of his eyewitness identification expert witness. Woods presented
this claim on direct appeal as his Fourth Assignment of Error and the First District decided it as
follows:

20

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 21 of 44 PAGEID #: 4146
041

[*P37] In his fourth assignment of error, Woods contends that

the trial court erred in limiting the testimony of his expert
witnesses. He first argues that the court erred in restricting the
testimony of psychologist Dr. Dysart. Although Dr. Dysart was
permitted to testify about the factors in this case that would have
impeded Chandler's ability to identify his assailant, Woods argues
that the court erred in precluding Dysart from rendering an opinion
on the ultimate issue of Chandler's credibility.
[*P38] Evid.R. 704, along with Evid.R. 702, 402, and 403,

generally permits the admission of expert testimony on an ultimate
issue to be decided by the trier of fact. See State v. Campbell, 1st
Dist. Hamilton Nos. C-010567 and C-010596, 2002 Ohio 1143,
2002 Ohio App. LEXIS 1158 (Mar. 15, 2002). And the expert

testimony of an experimental psychologist concerning variables or
factors that may impair the accuracy of a typical eyewitness
identification is admissible under Evid.R. 702. State v. Buell, 22
Ohio St.3d 124, 22 Ohio B. 203, 489 N.E.2d 795 (1986),
paragraph one of the syllabus. But testimony of such an expert

regarding the credibility of a particular witness is inadmissible
under Evid.R. 702, absent a showing that the witness suffers from
a mental or physical impairment that would affect his ability to
observe or recall events. Id. at paragraph two of the syllabus.
[*P39] Under Buell, we review the trial court's decision to admit
or exclude evidence for an abuse of discretion. Id. at 133. In
addition, under Evid.R. 402, the trial court retains the discretion to

exclude even relevant evidence if it would unduly waste time or
confuse the issues. Id.
[*P40] In this case, we find no abuse of discretion. Although the
evidence indicated that Chandler had been smoking crack cocaine
on the night of the shooting, the state demonstrated that the effects
of the drug would have dissipated by the time the gunman
approached the car. There was also an indication in Chandler's
medical chart that he had suffered from oxygen deprivation and its
attendant effects on his mental functioning, but Jordan Bradley
Bonomo, M.D., a neurointensivist who had treated Chandler,
testified that the notation in the chart had been erroneous.
[*P41] Moreover, Dr. Dysart herself conceded that the statistical

data she had compiled with respect to the factors affecting the
reliability of identification in general could not be used to predict
or assess the identification made by a particular witness. Thus, the
trial court could have reasonably concluded that Dysart's opinion
concerning Chandler's credibility would have confused the issues
or misled the jury.
21

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 22 of 44 PAGEID #: 4147
042

[*P42] Finally, the defense was permitted, through the
testimony of Dr. Rorick and Dr. Abdullah, to adduce expert
evidence about the credibility of Chandler's identification. Thus,
the exclusion of similar evidence proffered by Dr. Dysart cannot
be said to have resulted in material prejudice to Woods.
[*P43] Woods next argues that the trial court erred in rejecting

the testimony of a law professor on the issue of jailhouse informant
Beard's credibility. Woods proffered that the professor would have
testified about the inherent deficiencies in the testimony of
jailhouse informants in light of the widespread exchange of
favorable testimony for reduced sentences.
[*P44] To be admissible, an expert opinion must first relate "to
matters beyond the knowledge or experience possessed by
laypersons" or dispel "a misconception common among laypersons
* * *." See State v. Garrett, 1st Dist. Hamilton No. C-090592,
2010-Ohio-5431, ¶ 35. And, once again, a trial court's
determination of admissibility under Evid.R. 702 will not be
reversed absent an abuse of discretion. Id.
[*P45] In this case, we find no abuse of discretion. Woods was

permitted to cross-examine Beard at length about jailhouse
informants in general, about his previous cooperation with the
police, and about his expectation that he would benefit from his
testimony in this case. We are not persuaded that the proffered
expert testimony would have further illuminated the subject for the
jury, and we overrule the fourth assignment of error.
State v. Woods, supra.
Woods grounds his fifth claim for relief in Ake v. Oklahoma, 470 U.S. 68 (1985),
Chambers v. Mississippi, 410 U.S. 284 (1973), and Crane v. Kentucky, 476 U.S. 683 (1986).
Ake held that an indigent murder defendant was entitled to state-funded psychiatric witness
assistance in preparing his defense; it did not hold that any particular type of expert testimony
was constitutionally entitled to be presented. Chambers, of course, dealt with the common law
rule about impeaching one’s own witness (the so-called vouching rule), and not about experts at
all. Neither did Crane.

22

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 23 of 44 PAGEID #: 4148
043

The expert opinions which Woods wanted to present and which Judge Myers excluded
were an ultimate opinion on whether Chandler’s identification was reliable and national
statistical data on eyewitness identifications on convictions later vacated. Woods has not shown
that the Supreme Court has held an ultimate opinion by an expert on the credibility of a witness
must be admitted.
In her Affidavit Dr. Dysart writes about the conclusion of Brandon Garrett that 75% of
the first 250 DNA exonerations were for convictions where there was erroneous eyewitness
identification (Record, ECF No. 10, PageID 188-89.) Professor Garrett’s widely-known and
respected study, published under the title CONVICTING

THE INNOCENT,

is very important and

Dr. Dysart’s Affidavit accurately reports part of his conclusions. But the fact that 75% of the
first 250 DNA exonerations happened in case with eyewitness identification mistakes, if
presented to a jury, would be likely to cause confusion because it says nothing about the
likelihood of misidentification in this case. For example, many of the early DNA exonerations
were for cross-racial stranger rape. For a jury to be told the 75% statistic without other data –
e.g., the number of unreversed convictions with cross-racial eyewitness identification; the
number of cases in which no DNA evidence is available for testing, the number of unreversed
convictions with non-stranger eyewitness identification – would be confusing and likely to give
rise to the cognitive error of “anchoring.”
Woods also complains of the exclusion of his tendered expert on the subject of the
reliability of jailhouse informants, law professor Christo Lassiter.

As an area of expert

testimony, thus subject is far less developed than that of the reliability of eyewitness
identification testimony. Because it relates to the credibility of a witness which the law deems
fully testable by cross-examination, it is arguably not a proper subject for expert testimony under

23

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 24 of 44 PAGEID #: 4149
044

Rule 702. Certainly there is no Supreme Court decision holding that such testimony must be
admitted.
Because Woods has not shown any Supreme Court authority requiring as a matter of due
process admission of evidence of the type excluded here, Ground Five should be dismissed on
the merits.

Ground Six: Improper Admission of Jailhouse Witness Testimony

In his Sixth Ground for Relief, Woods claims the trial court violated his Sixth and
Fourteenth Amendment rights by admitting the testimony of a jailhouse informant about Woods’
inculpatory statements to him.

Woods presented this claim on direct appeal as his Fifth

Assignment of Error which the First District decided as follows:
[*P46] In his fifth assignment of error, Woods argues that the trial
court erred in permitting Beard to testify about Woods's alleged
confession to the offenses. Woods first maintains that Beard was
acting as an agent of the state and that the admission of the
confession violated Woods's right to counsel under the Sixth
Amendment. See United States v. Henry, 447 U.S. 264, 100 S.Ct.
2183, 65 L.Ed.2d 115 (1980).
[*P47] We find no merit in this argument. At a hearing on this
issue, the evidence indicated that, although Beard had worked with
the police in the past, he was not acting on behalf of the state or at
the state's direction when Woods made the statement about the
shootings in this case.
[*P48] Woods next argues that the court erred in failing to hold a
credibility hearing before Beard was permitted to testify. Again,
this argument is without merit. Beard's credibility was for the jury
to determine, and Woods was permitted to cross-examine him
extensively about his involvement with the police and his
expectation that he would benefit from testifying against Woods.
Moreover, the jury was properly instructed to consider a witness's
bias or interest in determining credibility. It was not incumbent on
24

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 25 of 44 PAGEID #: 4150
045

the trial court to hold a separate hearing on the issue. See State v.
Howard, 1st Dist. Hamilton No. C-100240, 2011-Ohio-2862, ¶ 46.
[*P49] Woods also contends that the trial court erred in restricting
his cross-examination of Beard with respect to an alleged prior
violent crime involving an elderly victim. But because the
questioning involved only a charge against Beard, as opposed to a
conviction, Woods can demonstrate no error. Evid.R. 609; State v.
Rodriquez, 31 Ohio App.3d 174, 176, 31 Ohio B. 339, 509 N.E.2d
952 (9th Dist.1986). We overrule the fifth assignment of error.
State v. Woods, supra.
The Sixth Amendment portion of this claim depends on establishing that the informant,
Jermaine Beard, was acting as an agent of the State when he elicited the inculpatory statements.
The First District found that Judge Myers had held a hearing on that question and found that,
although Beard had acted as a police agent in the past, he was not doing so when Woods gave the
inculpatory statement. Id. at ¶ 47. Obviously, the credibility of the witnesses in that hearing
was for Judge Myers to evaluate.
The balance of Woods’ argument on this Ground for Relief cites a number of cases in
which the courts and legal commentators have disparaged the credibility of jailhouse informants
(Reply, ECF No. 3989). But Woods offers no authority for the proposition that a state court
must hold a pretrial credibility hearing regarding an informant and exclude his testimony if the
judge finds it incredible. Most informants are strongly impeachable with prior convictions and
expected benefits from their testimony. But the Constitution does not impose a motion-tosuppress-like pretrial process on the States for considering jailhouse informants. Ground Six
should be dismissed on the merits.
Ground Seven: Exclusion of Chandler’s Medical and Psychological Records

In his Seventh Ground for Relief, Woods claims the trial court erred by excluding the
25

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 26 of 44 PAGEID #: 4151
046

victim’s medical and psychological records which would allegedly have shown his state of mind
at the time of the offense and when he later identified Woods. Woods presented this claim to the
First District on direct appeal as his Sixth Assignment of Error which was decided as follows:
[*P50] In his sixth assignment of error, Woods argues that the
trial court erred in excluding from evidence portions of Chandler's
medical and psychiatric records. Specifically, the court excluded
records from 2004 indicating that Chandler had psychiatric
disorders and a history of drug abuse. Woods sought to introduce
the records to cast doubt on Chandler's ability to identify his
assailant.
[*P51] The decision to admit or exclude a victim's medical
records will not be reversed absent an abuse of discretion. See
State v. Kidd, 11th Dist. Portage No. 2006-P-0087, 2007-Ohio6562, ¶ 59. Here, the trial court did not abuse its discretion.

Woods simply could not demonstrate a connection between
Chandler's psychiatric condition in 2004 and his ability to identify
his assailant in 2010. Thus, the trial court reasonably concluded
that the evidence was not relevant under Evid.R. 401. We overrule
the sixth assignment of error.
State v. Woods, supra.
The Warden asserts that this was simply a decision of state evidence law which is not
reviewable in habeas corpus (Return, ECF No. 11, PageID 3927-28). Woods again relies on
Chambers v. Mississippi, supra. As noted above, Chambers invalidated the exclusion of a
witness under the common law vouching rule which was still in effect in Mississippi when the
case was decided, although most jurisdictions had abandoned it and it was omitted from the
proposed Federal Rules of Evidence.

Chambers places no constitutional limit on the

enforcement of state relevancy rules by the exclusion of outdated medical records. Ground
Seven should be dismissed on the merits.

26

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 27 of 44 PAGEID #: 4152
047

Ground Eight: Ineffective Assistance of Trial Counsel

In his Eighth Ground for Relief, Woods claims he received ineffective assistance of trial
counsel in that his attorney (1) did not raise a Weatherford v. Bursey claim in suppression, (2)
failed to present exculpatory evidence, and (3) failed to properly instruct Woods’ expert on the
facts of the crime.
Woods presented an ineffective assistance of trial counsel claim on direct appeal as his
Seventh Assignment of Error which was decided as follows:
[*P52] In his seventh assignment of error, Woods maintains that

he was deprived of the effective assistance of trial counsel. To
establish ineffective assistance of counsel, the defendant must
demonstrate that counsel's performance fell below an objective
standard of reasonable performance and that prejudice arose from
counsel's performance. Strickland v. Washington, 466 U.S. 668,
687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); State v. Bradley,
42 Ohio St.3d 136, 538 N.E.2d 373 (1989), paragraphs two
and three of the syllabus.
[*P53] In this case, we find no deficiency on the part of trial
counsel. Woods first argues that counsel was deficient in failing to
present the statement of the deceased witness discussed under the
third assignment of error. But as the state correctly notes, that
witness had identified the shooter as "Carlos" or "Los," which were
two of Woods's nicknames. Thus, the statement of the witness
would have bolstered the state's contention that Woods was the
perpetrator. There was simply no deficiency in defense counsel's
failure to pursue the issue.
[*P54] Woods next argues that counsel was derelict in failing to
more diligently discredit the testimony of Beard. As we have
already noted, counsel vigorously challenged both the admissibility
and the credibility of Beard's testimony, and we can discern no
lack of skill or diligence in counsel's handling of the issue.
[*P55]
Woods also maintains that counsel failed to
appropriately attack the credibility of Chandler's identification
under R.C. 2933.83. Again, we find no merit to this claim.
Counsel consistently attacked the identification procedure used by
the officers, both by cross-examining the officers and by offering

27

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 28 of 44 PAGEID #: 4153
048

expert testimony concerning the suggestiveness of the procedure.
Woods's inability to obtain suppression of the identification as a
result of the officers' alleged violation of the statute was not the
result of counsel's deficiency; suppression was simply not an
available remedy. See Cook, 1st Dist. Hamilton No. C-130242,
2013-Ohio-5449, and Ruff, 1st Dist Hamilton No. C-110250,
2012-Ohio-1910.
[*P56] Next, Woods argues that counsel was ineffective in the
presentation of the testimony and report of Dr. Dysart.
Specifically, he argues that counsel failed to pursue the issue of
nonstranger identification. But Woods has not specifically
identified what Dr. Dysart could have added to her testimony or
report to further discredit Chandler's identification of Woods as his
assailant and has therefore failed to demonstrate prejudice.
[*P57] Finally, Woods argues that counsel was ineffective in

failing to object to instances of prosecutorial misconduct in closing
argument. Specifically, he argues that his attorneys should have
objected to the assistant prosecutor's argument that the
investigating officers had not violated R.C. 2933.83. As
we discuss under the ninth assignment of error, there was no
prejudice resulting from the comments on the statutory procedures.
[*P58] In sum, we find no deficiency on the part of trial

counsel, and we overrule the seventh assignment of error.
State v. Woods, supra.
The governing standard for ineffective assistance of counsel is found in Strickland v.
Washington, 466 U.S. 668 (1984):

A convicted defendant's claim that counsel's assistance was so
defective as to require reversal of a conviction or death sentence
has two components. First, the defendant must show that counsel's
performance was deficient. This requires showing that counsel
was not functioning as the "counsel" guaranteed the defendant by
the Sixth Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel's errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable. Unless a
defendant makes both showings, it cannot be said that the
conviction or death sentence resulted from a breakdown in the
adversary process that renders the result unreliable.
28

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 29 of 44 PAGEID #: 4154
049

466 U.S. at 687. In other words, to establish ineffective assistance, a defendant must show both
deficient performance and prejudice. Berghuis v. Thompkins, 560 U.S. 370, 389 (2010), citing
Knowles v. Mirzayance, 556 U.S.111 (2009).
With respect to the first prong of the Strickland test, the Supreme Court has commanded:
Judicial scrutiny of counsel's performance must be highly
deferential. . . . A fair assessment of attorney performance requires
that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel=s challenged
conduct, and to evaluate the conduct from counsel=s perspective at
the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that
counsel's conduct falls within a wide range of reasonable
professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action
"might be considered sound trial strategy."
466 U.S. at 689.
As to the second prong, the Supreme Court held:
The defendant must show that there is a reasonable probability
that, but for counsel's unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is
a probability sufficient to overcome confidence in the outcome.
466 U.S. at 694. See also Darden v. Wainwright, 477 U.S. 168 (1986); Wong v. Money, 142
F.3d 313, 319 (6th Cir. 1998); Blackburn v. Foltz, 828 F.2d 1177 (6th Cir. 1987). See generally
Annotation, 26 ALR Fed 218.
The First District cited Strickland as the governing law, as well as State v. Bradley, 42
Ohio St. 3d 136 (1989), in which the Ohio Supreme Court recognized Strickland as providing the
standard. Because the First District decided this ineffective assistance of trial counsel claim, the
issue in habeas is whether its decision is an objectively unreasonable application of Strickland.
The sub-claims will be discussed separately.
29

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 30 of 44 PAGEID #: 4155
050

The Weatherford Sub-Claim

Woods asserts his attorney “although aggressively attacking the testimony of jailhouse
informant Jermaine Beard . . failed to develop this claim under Weatherford v. Bursey, 429 U.S.
545 (1977), which is the prevailing Supreme Court authority on the use of government
informants.” (Reply, ECF No. 17, PageID 3991).
Petitioner’s argument on this claim is pure ipse dixit.

He fails to explain what a

developed claim under Weatherford would have looked like5. No authority is offered for the
proposition that developing a claim about a jailhouse informant without developing it “under
Weatherford” was somehow deficient performance. And no effort is made to show how a claim
developed under Weatherford might have succeeded, so there is no showing of prejudice.
This sub-claim is without merit.

Failure to Present the Supposed Exculpatory Evidence from the Deceased Witness

This sub-claim is grounded in the failure to trial counsel to present evidence that an
eyewitness to the shooting – a witness who was murdered before trial – would have identified the
shooter as “Carlos” or “Los.” The First District found there was no prejudice here because those
two names had been shown to be nicknames of Woods. State v. Woods, supra, ¶ 53.
In his Reply, Woods makes no effort to undermine this finding of the First District. If
Woods’ trial attorney knew that the evidence from the deceased witness, instead of undermining
Chandler’s identification, could in fact have bolstered it, it would have been deficient
performance to present it.
5

The litigant complaining of use of a government informant lost in Weatherford.

30

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 31 of 44 PAGEID #: 4156
051

This sub-claim is also without merit.

Failure to Oppose Motion in Limine

In his Reply, Woods claim his attorney performed deficiently in “fail[ing] to file a written
response to the State’s motion in limine to exclude the testimony of Woods’ expert on jailhouse
informants,” Professor Lassiter. (ECF No. 17, PageID 3992). This sub-claim is forfeited by
failing to plead it in the Petition (ECF No. 1-1, PageID 18). A claim may not be added to a
habeas proceeding by merely inserting it in argument in the reply.

Failure to Use Ohio Revised Code § 2933.83 to Attack Chandler’s Identification

This sub-claim also is not pleaded in the Petition and is forfeited for the same reason.

Failure to Properly Instruct Dr. Dysart

Although this sub-claim is pleaded in the Petition, the Warden asserts it is procedurally
defaulted because “it is not contained in any of the briefs filed in the state court. . . .” (Return,
ECF No. 11, PageID 3928.) The Reply makes no response to this procedural default defense.
The procedural default doctrine in habeas corpus is described by the Supreme Court as
follows:
In all cases in which a state prisoner has defaulted his federal
claims in state court pursuant to an adequate and independent state
procedural rule, federal habeas review of the claims is barred
unless the prisoner can demonstrate cause of the default and actual
31

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 32 of 44 PAGEID #: 4157
052

prejudice as a result of the alleged violation of federal law; or
demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991); see also Simpson v. Jones, 238 F.3d 399, 406
(6th Cir. 2000). That is, a petitioner may not raise on federal habeas a federal constitutional
rights claim he could not raise in state court because of procedural default. Wainwright v. Sykes,
433 U.S. 72 (1977); Engle v. Isaac, 456 U.S. 107, 110 (1982). Absent cause and prejudice, a
federal habeas petitioner who fails to comply with a State’s rules of procedure waives his right to
federal habeas corpus review. Boyle v. Million, 201 F.3d 711, 716 (6th Cir. 2000)(citation
omitted); Murray v. Carrier, 477 U.S. 478, 485 (1986); Engle, 456 U.S. at 110; Wainwright,
433 U.S. at 87. Wainwright replaced the "deliberate bypass" standard of Fay v. Noia, 372 U.S.
391 (1963). Coleman, 501 U.S. at 724.
"A claim may become procedurally defaulted in two ways." Lovins v. Parker, 712 F.3d
283, 295 (6th Cir. 2013), quoting Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006). First,
a claim is procedurally defaulted where state-court remedies have been exhausted within the
meaning of § 2254, but where the last reasoned state-court judgment declines to reach the merits
because of a petitioner's failure to comply with a state procedural rule. Id. Second, a claim is
procedurally defaulted where the petitioner failed to exhaust state court remedies, and the
remedies are no longer available at the time the federal petition is filed because of a state
procedural rule. Id.
Failure to raise a constitutional issue at all on direct appeal is subject to the cause and
prejudice standard of Wainwright v. Sykes, 433 U.S. 72 (1977). Murray v. Carrier, 477 U.S. 478,
485 (1986); Mapes v. Coyle, 171 F.3d 408, 413 (6th Cir. 1999); Rust v. Zent, 17 F.3d 155, 160
(6th Cir. 1994); Leroy v. Marshall, 757 F.2d 94, 97 (6th Cir.), cert denied, 474 U.S. 831 (1985).

32

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 33 of 44 PAGEID #: 4158
053

Failure to present an issue to the state supreme court on discretionary review constitutes
procedural default. O’Sullivan v. Boerckel, 526 U.S. 838, 848 (1999)(citations omitted).
This sub-claim is barred by Woods’ procedural default in failing to present it to the state
courts.

Failure to Object to Prosecutorial Misconduct

In his Reply, Woods asserts his attorney failed to object to prosecutorial misconduct in
closing argument (ECF No. 17, PageID 3992). This sub-claim is also forfeited by failing to
plead it in the Petition.
Petitioner’s claims of ineffective assistance of trial counsel being either forfeited,
defaulted, or without merit, his Eighth Ground for Relief should be dismissed.

Ground Nine: Improper Jury Instructions

In his Ninth Ground for Relief, Woods asserts trial court error in instructing the jury in
two respects: (1) permitting an inference of guilt from Woods’ flight without sufficient evidence
of his motive, and (2) failing to instruct the jury on Ohio’s identification statute. Woods
presented these claims to the First District on direct appeal and they were decided as follows:
[*P59] In his eighth assignment of error, Woods argues that the

court erred in instructing the jury. He first argues that the court
improperly instructed the jury on the issue of flight.
[*P60]

HN13

An instruction on flight as it relates to a
defendant's consciousness of guilt is proper if there is sufficient
evidence of escape or some affirmative attempt to avoid
apprehension. State v. Robinson, 1st Dist. Hamilton No. C33

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 34 of 44 PAGEID #: 4159
054

060434, 2007-Ohio-2388, ¶ 19, citing State v. Brundage, 1st
Dist. Hamilton No. C-030632, 2004-Ohio-6436, ¶ 17. A trial

court's decision to instruct the jury on flight will not be reversed
absent an abuse of discretion. Robinson at ¶ 19, citing Brundage
at ¶ 18.
[*P61] Here, we find no abuse of discretion. The state presented
evidence that Woods had been a long-time resident of Cincinnati
and in particular of the area in which the shooting had occurred. In
light of his capture several months later in the vicinity of
Cleveland, we cannot say that the instruction on flight was
arbitrary, unreasonable, or unconscionable.
[*P62] Woods also contends that the court erred in failing to

instruct the jury on the state's alleged failure to comply with the
identification guidelines contained in R.C. 2933.83. R.C.
2933.83(C) states that:
When evidence of a failure to comply with any of the
provisions of this section, or with any procedure for
conducting lineups that has been adopted by a law
enforcement agency or criminal justice agency pursuant
to division (B) of this section and that conforms to any
provision of divisions (B)(1) to (5) of this section, is
presented at trial, the jury shall be instructed that it may
consider credible evidence of noncompliance in
determining the reliability of any eyewitness
identification resulting from or related to the lineup.
We first reiterate that this was not a situation in which the victim
was attempting to identify an unknown assailant from a lineup; the
state presented evidence that Chandler had bought drugs from
Woods on numerous occasions and that Chandler had prompted
the investigation of Woods when he informed Richard Tucker that
he could identify the perpetrator. Thus, the single-photo procedure
did not result in the likelihood of misidentification. See State v.
Johnson, 1st Dist. Hamilton No. C-090413, 2010-Ohio-3861, ¶
24.
[*P63] Moreover, the trial court instructed the jury in this case

that a single-photograph presentation "is generally considered
suggestive." Accordingly, even though the court did not identify
the statute by its Revised Code section, the jury was instructed that
the procedures used by the officers could be considered in
determining the reliability of the identification. We find no error in
the instructions, and we overrule the eighth assignment of error.
34

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 35 of 44 PAGEID #: 4160
055

State v. Woods, supra.
Both parties agree the relevant Supreme Court decisions are Estelle v. McGuire, 502 U.S.
62, 67-68 (1991), and Cupp v. Naughten, 414 U.S. 141 (1973)(Cited at Return, ECF No. 11,
PageID 3931; Reply, ECF No. 17, PageID 3993).

Additionally, alleged errors in jury

instructions normally do not rise to the level of federal constitutional violations. See Engle v.
Isaac, 456 U.S. 107 (1982); Turoso v. Cleveland Municipal Court, 674 F.2d 486 (6th Cir. 1982);
Eberhardt v. Bordenkircher, 605 F.2d 275 (6th Cir. 1979); Weston v. Rose, 527 F.2d 524 (6th
Cir. 1975). When the evidence presented does not support a requested jury instruction and that
determination is based upon a state court’s interpretation and application of state law, an asserted
error relating to the jury instruction is not cognizable in federal habeas corpus unless the failure
amounted to a fundamental miscarriage of justice. See Bagby v. Sowders, 894 F.2d 792, 795 (6th
Cir. 1990).
The complained-of flight instruction was “Testimony has been admitted indicating that
the defendant left Hamilton County. You are instructed that this alone does not raise a
presumption of guilt, but it may tend to indicate the defendant's consciousness of guilt.” (Reply,
ECF No. 17, PageID 3993, quoting Tr. Tr. at PageID 3790). Woods complains this instruction
was given sua sponte. Id. However, a trial judge has a duty to instruct the jury on the law it
needs to decide the case which is independent of whether counsel request a particular instruction.
Woods does not dispute the First District’s recounting of the evidence that Woods was a longterm resident of Cincinnati “and in particular of the area where the shooting occurred” and that
he was captured several months after the shooting in Lorain County, which is near Cleveland.
The instruction was balanced, telling the jury not to give presumptive weight to the flight.
Woods also claims “[t]he trial court committed reversible error by failing to instruct the

35

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 36 of 44 PAGEID #: 4161
056

jury regarding the deficiencies in the Chandler identification procedure,” to wit, that the police
did not comply with Ohio Revised Code § 2933.83 (Reply, ECF No. 17, PageID 3993).
In arguing this claim in the Reply, Woods emphasizes the mandatory language in the
statute providing that an instruction on noncompliance shall be given when there is evidence of
noncompliance (ECF No. 17, PageID 3993). Instead of literal compliance, the First District
found there had been substantial compliance. State v. Woods, supra, at ¶ 63. But whether the
trial judge complied with Ohio law is plainly a question of state law, not reviewable in habeas.
This Court cannot properly constitutionalize Ohio Revised Code § 2933.83 by reversing a
conviction upon a finding of noncompliance. “A state cannot be said to have a federal due
process obligation to follow all of its procedures; such a system would result in the
constitutionalizing of every state rule, and would not be administrable.” Levine v. Torvik, 986
F.2d 1506, 1515 (6th Cir. 1993), cert. denied, 509 U.S. 907 (1993).
Ground Nine should therefore be dismissed.

Ground Ten: Prosecutorial Misconduct

In his Tenth Ground for Relief, Woods claims that misconduct by the prosecutor deprived
him of a fair trial. He raised prosecutorial misconduct as his Ninth Assignment of Error on direct
appeal and the First District decided it as follows:
[*P64] In his ninth assignment of error, Woods contends that he

was deprived of a fair trial by prosecutorial misconduct. HN15 The
test for prosecutorial misconduct is whether the prosecutor's
remarks were improper, and, if so, whether they prejudicially
affected the defendant's substantial rights. State v. Glenn, 1st
Dist. Hamilton No. C-090205, 2011-Ohio-829, ¶ 52, citing State
v. Smith, 14 Ohio St.3d 13, 14-15, 14 Ohio B. 317, 470 N.E.2d
883 (1984), and State v. Canyon, 1st Dist. Hamilton Nos. C070729, C-070730 and C-070731, 2009-Ohio-1263, ¶ 17.

36

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 37 of 44 PAGEID #: 4162
057

[*P65] Woods first argues that, during closing argument, the
assistant prosecutor improperly alluded to portions of Spears's
prior statement to police after the trial court had excluded those
portions from evidence. The issue surrounding the prior statement
was the extent to which Chandler had known Woods before the
night of the shooting.
[*P66] We find no impropriety. The prosecutor made reference
to the excluded portions only in response to defense counsel's
playing of a portion of the statement in which Spears failed to
mention Chandler's relationship with Woods. The state's reference
to the statement was thus merely intended to rebut the implication
that Spears had fabricated his testimony about the relationship.
Moreover, because the trial court instructed the jury to consider
only those items that had been admitted into evidence, we cannot
say that Woods was prejudiced by the state's comments. See
generally State v. Ruff, 1st Dist. Hamilton No. C-120844, 2013Ohio-5892, ¶ 16.
[*P67]

Woods next argues that the assistant prosecutor
improperly informed the jury that the investigating officers had not
violated R.C. 2933.83 by using a single-photograph identification
procedure. Once again, we find no prejudice in the comments. As
we have already held, the trial court properly instructed the jury
about the identification procedure, and we must presume that the
jury followed those instructions. Id. Accordingly, we overrule the
ninth assignment of error.
State v. Woods, supra.
The Sixth Circuit has articulated the relevant standard for habeas claims of prosecutorial
misconduct:
On habeas review, claims of prosecutorial misconduct are
reviewed deferentially. Darden v. Wainwright, 477 U.S. 168, 181
(1986). To be cognizable, the misconduct must have “‘so infected
the trial with unfairness as to make the resulting conviction a
denial of due process.’” Id. (citation omitted). Even if the
prosecutor’s conduct was improper or even “universally
condemned,” id., we can provide relief only if the statements were
so flagrant as to render the entire trial fundamentally unfair. Once
we find that a statement is improper, four factors are considered in
determining whether the impropriety is flagrant: (1) the likelihood
that the remarks would mislead the jury or prejudice the accused,
37

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 38 of 44 PAGEID #: 4163
058

(2) whether the remarks were isolated or extensive, (3) whether the
remarks were deliberately or accidentally presented to the jury, and
(4) whether other evidence against the defendant was substantial.
See Boyle v. Million, 201 F.3d 711, 717 (6th Cir. 2000). Under
[the] AEDPA, this bar is heightened by the deference we give to
the . . . [Ohio] Supreme Court’s determination of . . . [Petitioner’s]
prosecutorial-misconduct claims. See Macias v. Makowski, 291
F.3d 447, 453-54 (6th Cir. 2002)(“If this court were hearing the
case on direct appeal, we might have concluded that the
prosecutor’s comments violated Macias’s due process rights. But
this case is before us on a petition for a writ of habeas corpus. So
the relevant question is not whether the state court’s decision was
wrong, but whether it was an unreasonable application of clearly
established federal law.”).
Bowling v. Parker, 344 F.3d 487, 512-13 (6th Cir. 2003); see also Bates v. Bell, 402 F.3d 635 (6th
Cir. 2005), Johnson v. Bell, 525 F.3d 466, 482 (6th Cir. 2008). The standard for habeas relief for
prosecutorial misconduct thus parallels that for jury instruction error: the misconduct must be
sufficiently egregious so as to deny a defendant a fair trial.
Woods’ first claim of misconduct in the Petition is that the prosecutor lied to the court
regarding the safety of a witness who was already deceased and therefore not in need of further
protection by nondisclosure of his identity (Petition, ECF No. 1-1, PageID 18). This claim is
procedurally defaulted because Woods did not raise it on direct appeal. Moreover, there is no
showing that this somehow denied Woods a fair trial.
Woods’ second claim of misconduct in the Petition is that the prosecutor commented to
the jury that “Woods’ compliance with an evidentiary ruling [was] evidence of guilt.” Id. . The
First District properly found there was no prosecutorial misconduct here because the prosecutor
was responding to an implication made by defense counsel. State v. Woods, supra, at ¶¶ 65-66.
Woods’ last claim of prosecutorial misconduct is that the prosecutor improperly bolstered
the reliability of Chandler’s identification of Woods “by suggesting he knew Woods.” (Reply,
ECF No. 17, PageID 3995). As it was raised and dealt with by the First District (¶ 67), this was
38

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 39 of 44 PAGEID #: 4164
059

a charge of misconduct by implying Ohio Revised Code § 2933.83 does not apply to nonstranger identification. The First District held there was no prejudice because the jury was
properly instructed about identification procedure. As it is argued in the Reply, the claim is
without merit because there was evidence Chandler knew Woods.
Ground Ten should therefore be dismissed.

Ground Eleven: Insufficient Evidence to Support Conviction

As pleaded in the Petition, the Eleventh Ground for Relief raises claims that the
convictions were both against the manifest weight of the evidence and supported by insufficient
evidence (Petition, ECF No. 1-1, PageID 18.) As correctly pointed out by the Warden, a
manifest weight claim is not cognizable in habeas corpus. Johnson v. Havener, 534 F.2d 1232
(6th Cir. 1986). Woods argues only the insufficient evidence claim in his Reply (ECF No. 17,
PageID 3995-96).
An allegation that a verdict was entered upon insufficient evidence states a claim under
the Due Process Clause of the Fourteenth Amendment to the United States Constitution.
Jackson v. Virginia, 443 U.S. 307 (1979); In re Winship, 397 U.S. 358 (1970); Johnson v. Coyle,
200 F.3d 987, 991 (6th Cir. 2000); Bagby v. Sowders, 894 F.2d 792, 794 (6th Cir. 1990)(en
banc). In order for a conviction to be constitutionally sound, every element of the crime must be
proved beyond a reasonable doubt. In re Winship, 397 U.S. at 364.
[T]he relevant question is whether, after viewing the evidence in
the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a
reasonable doubt . . . . This familiar standard gives full play to the
responsibility of the trier of fact fairly to resolve conflicts in the
testimony, to weigh the evidence and to draw reasonable
39

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 40 of 44 PAGEID #: 4165
060

inferences from basic facts to ultimate facts.
Jackson v. Virginia, 443 U.S. at 319; United States v. Paige, 470 F.3d 603, 608 (6th Cir. 2006);
United States v. Somerset, 2007 U.S. Dist. LEXIS 76699 (S.D. Ohio 2007). This rule was
recognized in Ohio law at State v. Jenks, 61 Ohio St. 3d 259 (1991). Of course, it is state law
which determines the elements of offenses; but once the state has adopted the elements, it must
then prove each of them beyond a reasonable doubt. In re Winship, supra. A sufficiency
challenge should be assessed against the elements of the crime, not against the elements set forth
in an erroneous jury instruction. Musacchio v. United States, 577 U.S. ___, 136 S. Ct. 709, 193
L. Ed. 2d 639 (2016).
In cases such as Petitioner’s challenging the sufficiency of the evidence and filed after
enactment of the Antiterrorism and Effective Death Penalty Act of 1996 (Pub. L. No 104-132,
110 Stat. 1214)(the “AEDPA”), two levels of deference to state decisions are required:
In an appeal from a denial of habeas relief, in which a petitioner
challenges the constitutional sufficiency of the evidence used to
convict him, we are thus bound by two layers of deference to
groups who might view facts differently than we would. First, as in
all sufficiency-of-the-evidence challenges, we must determine
whether, viewing the trial testimony and exhibits in the light most
favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable
doubt. See Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781,
61 L. Ed. 2d 560 (1979). In doing so, we do not reweigh the
evidence, re-evaluate the credibility of witnesses, or substitute our
judgment for that of the jury. See United States v. Hilliard, 11 F.3d
618, 620 (6th Cir. 1993). Thus, even though we might have not
voted to convict a defendant had we participated in jury
deliberations, we must uphold the jury verdict if any rational trier
of fact could have found the defendant guilty after resolving all
disputes in favor of the prosecution. Second, even were we to
conclude that a rational trier of fact could not have found a
petitioner guilty beyond a reasonable doubt, on habeas review, we
must still defer to the state appellate court's sufficiency
determination as long as it is not unreasonable. See 28 U.S.C. §
2254(d)(2).
40

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 41 of 44 PAGEID #: 4166
061

Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. 2009). In a sufficiency of the evidence habeas
corpus case, deference should be given to the trier-of-fact's verdict under Jackson v. Virginia and
then to the appellate court's consideration of that verdict, as commanded by AEDPA. Tucker v.
Palmer, 541 F.3d 652 (6th Cir. 2008); accord Davis v. Lafler, 658 F.3d 525, 531 (6th Cir.
2011)(en banc); Parker v. Matthews, 567 U.S. 37, 43 (2012). Notably, “a court may sustain a
conviction based upon nothing more than circumstantial evidence.” Stewart v. Wolfenbarger,
595 F.3d 647, 656 (6th Cir. 2010).
We have made clear that Jackson claims face a high bar in federal
habeas proceedings because they are subject to two layers of
judicial deference. First, on direct appeal, "it is the responsibility of
the jury -- not the court -- to decide what conclusions should be
drawn from evidence admitted at trial. A reviewing court may set
aside the jury's verdict on the ground of insufficient evidence only
if no rational trier of fact could have agreed with the jury."
Cavazos v. Smith, 565 U. S. 1, ___, 132 S. Ct. 2, 181 L. Ed. 2d
311, 313 (2011) (per curiam). And second, on habeas review, "a
federal court may not overturn a state court decision rejecting a
sufficiency of the evidence challenge simply because the federal
court disagrees with the state court. The federal court instead may
do so only if the state court decision was 'objectively
unreasonable.'" Ibid. (quoting Renico v. Lett, 559 U. S. ___, ___,
130 S. Ct. 1855, 176 L. Ed. 2d 678 (2010)).
Coleman v. Johnson, 566 U.S. 650, 651, (2012)(per curiam); Parker v. Matthews, 567 U.S. 37,
43 (2012) (per curiam).
Woods raised a combined manifest weight and sufficiency claim as his Tenth Assignment
of Error on direct appeal and it was decided as follows:
[*P68] In his tenth assignment of error, Woods argues that his
convictions were based on insufficient evidence and were against
the manifest weight of the evidence.
[*P69] In reviewing the sufficiency of the evidence to support a
conviction, the relevant inquiry for the appellate court "is whether,
after viewing the evidence in the light most favorable to the

41

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 42 of 44 PAGEID #: 4167
062

prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt." State
v. Waddy, 63 Ohio St.3d 424, 430, 588 N.E.2d 819 (1992). To
reverse a conviction on the manifest weight of the evidence, a
reviewing court must review the entire record, weigh the evidence
and all reasonable inferences, consider the credibility of the
witnesses, and conclude that, in resolving the conflicts in the
evidence, the trier of fact clearly lost its way and created a
manifest miscarriage of justice in finding the defendant guilty.
State v. Thompkins, 78 Ohio St.3d 380, 387, 1997 Ohio 52,
678 N.E.2d 541 (1997).
[*P70] R.C. 2903.02(B), governing murder, states that "[n]o

person shall cause the death of another as a proximate result of the
offender's committing or attempting to commit an offense of
violence that is a felony of the first or second degree * * *." The
underlying felony in this case was felonious assault under R.C.
2903.11(A)(1), which provides that "[n]o person shall knowingly
* * * [c]ause serious physical harm to another * * *." For the
attempted shooting of Smith and Spears, Woods was convicted of
felonious assault under R.C. 2903.11(A)(2), which states that
"[n]o person shall knowingly * * * [c]ause or attempt to cause
physical harm to another * * * by means of a deadly weapon or
dangerous ordnance."
[*P71] In this case, the convictions were in accordance with the

evidence. Chandler identified Woods as the person who had fired
multiple shots into the car and who had inflicted the injury that
ultimately proved to be fatal. Beard's testimony corroborated
Chandler's identification. The number of shots fired into the car—
and in particular those fired into the rear window—indicated that
Woods had attempted to harm all of the car's occupants. Finally, it
was undisputed that Woods was under a legal disability at the time
of the offenses. We cannot say that the jury or the trial court
created a manifest miscarriage of justice in finding Woods guilty,
and we overrule the tenth assignment of error.
State v. Woods, supra.
Woods’ argument in the Reply emphasizes the weakness of the evidence against him
(ECF No. 17, PageID 3995-96). But the test is not strength, but sufficiency. Chandler identified
Woods and Beard testified to Woods’ admissions. The jury heard and obviously believed that
testimony. It also heard corroborative circumstantial evidence: Chandler was a drug user who
42

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 43 of 44 PAGEID #: 4168
063

had purchased from Woods in the same vicinity on more than one occasion. And Woods left
Cincinnati for Cleveland after the shooting. There is apparently no doubt that Chandler died of
gunshot wounds inflicted in the same shooting in which the other victims. There is likewise no
challenge to the finding that Woods was under a disability at the time of the shooting.
In sum, the conclusion of the First District that Woods’ conviction is supported by
sufficient evidence is not an unreasonable application of Jackson. Ground Eleven should be
dismissed on the merits

Conclusion

Based on the foregoing analysis, it is respectfully recommended that the Petition herein
be dismissed with prejudice. Reasonable jurists could disagree with this conclusion as it relates
to Grounds One and Three such that Woods should be granted a certificate of appealablity on
those grounds if he appeals. Because reasonable jurists would not disagree with the above
conclusions on the other Grounds for Relief, Petitioner should be denied a certificate of
appealability on those Grounds.

July 14, 2017.
s/ Michael R. Merz
United States Magistrate Judge

43

Case: 1:16-cv-00643-MRB-MRM Doc #: 19 Filed: 07/14/17 Page: 44 of 44 PAGEID #: 4169
064

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Such objections shall specify the portions of the Report objected to and
shall be accompanied by a memorandum of law in support of the objections. If the Report and
Recommendations are based in whole or in part upon matters occurring of record at an oral
hearing, the objecting party shall promptly arrange for the transcription of the record, or such
portions of it as all parties may agree upon or the Magistrate Judge deems sufficient, unless the
assigned District Judge otherwise directs. A party may respond to another party=s objections
within fourteen days after being served with a copy thereof. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See United States v. Walters, 638
F.2d 947, 949-50 (6th Cir. 1981); Thomas v. Arn, 474 U.S. 140, 153-55 (1985).

44

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 1 of 12 PAGEID #: 4206
065

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
RICARDO WOODS,
Petitioner,

:

- vs -

Case No. 1:16-cv-643
District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

TERRY A. TIBBALS, Warden,
Allen Oakwood Correctional Institution,
:
Respondent.

SUPPLEMENTAL REPORT AND RECOMMENDATIONS

This habeas corpus case, brought by Petitioner Ricardo Woods pursuant to 28 U.S.C. §
2254 with the assistance of counsel, is before the Court on Petitioner’s Objections (ECF No. 20)
to the Magistrate Judge’s Report and Recommendations on the merits (“Report,” ECF No. 19).
The Warden has not responded to the Objections and his time to do so under Fed. R. Civ. P.
72(b) expired August 11, 2017. Judge Barrett has recommitted the case for reconsideration in
light of the Objections (Recommittal Order, ECF No. 21).
Petitioner’s Objections are thirty-five pages long, but beginning at PageID 4176 they
repeat verbatim Petitioner’s Reply to the Return of Writ (Compare Reply, ECF No. 17, PageID
3969-3997 with Objections, ECF No. 20, PageID 4176-4204). Since the Magistrate Judge has
already analyzed the Reply in writing the original Report, this Supplemental Report will be
confined to the new matter included in the Objections. Petitioner raises six objections which are
treated seriatim.
1

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 2 of 12 PAGEID #: 4207
066

First Objection: Error in Deciding Dying Declaration Claim

In his First Ground for Relief, Woods claims the trial court violated his rights under the
Confrontation Clause when it admitted into evidence an identification of him as the offender
produced by having the murder victim, Chandler, blink his eyes in response to certain stimuli.
Chandler had died by the time of trial and was not available for cross-examination. The Report
noted this claim was presented on direct appeal to the First District Court of Appeals and decided
on the merits, meaning that decision was to be reviewed in habeas under the AEDPA deferential
standard of 28 U.S.C. § 2254(d)(1). Petitioner conceded that was the correct standard but argued
the First District’s decision was contrary to Giles v. California, 554 U.S. 353 (2008).
Giles was concerned with whether the common law hearsay exception for testimony from
a witness whose absence was procured by the defendant would satisfy the Confrontation Clause
where the defendant had killed the witness. Justice Scalia wrote for the Court as he often did on
Confrontation Clause issues after his seminal opinion in Crawford v. Washington, 541 U.S. 36
(2004). He stated the issue before the Court as being “whether a defendant forfeits his Sixth
Amendment right to confront a witness against him when a judge determines that a wrongful act
by the defendant made the witness unavailable to testify at trial.” Giles was the but-for cause of
the witness’s absence because he killed her; that was enough for the California Supreme Court,
but not for Justice Scalia. In Crawford, the Court had held that the Confrontation Clause is
“most naturally read as a reference to the right of confrontation at common law, admitting only
those exceptions established at the time of the founding.” 554 U.S. at 358, citing Crawford, 541
U.S. at 54. Justice Scalia noted that the Crawford Court had concluded “that two forms of
testimonial statements were admitted at common law even thought they were unconfronted,” to

2

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 3 of 12 PAGEID #: 4208
067

wit, the dying declaration and forfeiture by wrongdoing exceptions. No party had asserted the
dying declaration exception was involved in Giles, so the Court analyzed only the forfeiture by
wrongdoing exception and concluded it was not available unless the prosecution could show that
Giles killed the witness with the intention or design of making him unavailable. Giles, 554 U.S.
359-60. Justice Scalia makes it very clear throughout his opinion that he is discussing only the
forfeiture by wrongdoing exception and not the dying declaration exception.
The Report concluded there was no holding in Giles about the constitutional scope of any
dying declaration exception to the Confrontation Clause (Report, ECF No. 19, PageID 4132).
Petitioner objects that although
Giles involved the forfeiture by wrongdoing exception to the
Confrontation Clause, the Court was clear in its pronouncement –
as a matter of historical precedent – that there exists a dying
declaration exception to the Confrontation Clause as well, and that
the exception requires objectively imminent death. Id. at 358. The
Court did so by relying upon centuries-old precedent defining the
dying declaration exception in objective, rather than subjective
terms. Id. (defining dying declaration as a statement “made by a
speaker who was both on the brink of death and aware that he was
dying”) (citing King v. Woodcock, 1 Leach 500, 501–504, 168 Eng.
Rep. 352, 353–354 (1789); State v. Moody, 3 N.C. 31 (Super. L. &
Eq. 1798); United States v. Veitch, 28 F. Cas. 367, 367–368 (No.
16,614) (CC DC 1803); King v. Commonwealth, 4 Va. 78, 80–81
(Gen.Ct.1817). As such, whether the Court relied upon the dying
declaration exception to resolve the issues in Giles is immaterial.
(Objections, ECF No. 20, PageID 4170-71.) What Justice Scalia did in the cited portion of Giles was
indeed to describe the dying declaration exception as it existed at common law at the time of the
founding.

But that description of the common law dying declaration exception is dictum,

unnecessary to the decision of the constitutional scope of the forfeiture by wrongdoing exception.
28 U.S.C. § 2254(d)(1) says a habeas court must defer to a state court decision of a
constitutional issue unless it is contrary to “clearly established law Federal law, as determined by the

3

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 4 of 12 PAGEID #: 4209
068

Supreme Court of the United States.” The Supreme Court itself has made it clear that this phrase
refers to holdings of Supreme Court cases, and not dicta. “‘[C]learly established Federal law’” for

purposes of §2254(d)(1) includes only “‘the holdings, as opposed to the dicta, of this Court’s
decisions.’” Howes v. Fields, 565 U. S. 499, 505, 132 S.Ct. 1181, 182 L. Ed. 2d 17, 25 (2012)
(quoting Williams v. Taylor, 529 U. S. 362, 412, 120 S.Ct. 1495, 146 L. Ed. 2d 389 (2000));
White v. Woodall, 572 U.S. ___, 134 S.Ct. 1697, 188 L. Ed. 2d 698 (2014).
There is no United States Supreme Court holding on the parameters of the dying
declaration exception to the Confrontation Clause, as the Sixth Circuit recognized in Walker v.
Harry, 462 Fed. Appx. 543, 545-46 (6th Cir. 2012).

Second Objection: Further Error in Deciding Dying Declaration Claim

In his second objection (ECF No. 20, PageID 4171), Petitioner argues the Magistrate
Judge “should have considered whether the victim’s death was objectively imminent before
denying Woods’ Confrontation Clause claim.” For the reasons given above as to the First
Objection, this objection is irrelevant. This Court could consider that question only if the
Supreme Court had held that objective imminence was a constitutional requirement for the dying
declaration exception to the Confrontation Clause. It has not done so.

Third Objection: Error in Deciding the Batson Issue

The First District and the Report concluded the trial judge committed error in her
application of Batson v. Kentucky, 476 U.S. 79 (1986), by requiring Defendant to show a pattern
of race-based peremptory challenges before raising a Batson claim (Report, ECF No. 19, PageID
4

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 5 of 12 PAGEID #: 4210
069

4138, et seq.). When the prosecutor made a peremptory challenge to a second African-American
venireperson, the trial judge required him to make a race-neutral explanation as to both excluded
persons and found he failed to do so with respect to Ms. Laury, the first person excused. An
obvious remedy would have been to seat Ms. Laury at that point, but she had already been
excused and apparently1 been permitted to depart from the courthouse. Both the First District
and the Magistrate Judge put the responsibility for allowing the trial to continue on Woods’
shoulders. Petitioner objects that “[t]o the contrary, it was the trial court’s responsibility to
ensure that Woods’ guilt or innocence was judged by a racially balanced jury, and the trial court
committed reversible, structural error in failing to uphold its duty.” (Objections, ECF No. 20,
PageID 4171-72.)
There is no constitutional right to a “racially balanced” jury. The right protected by the
Fourteenth Amendment as interpreted in Batson is the right not to be tried by a jury from which a
potential juror has been intentionally removed on the basis of race.
However, it is clear in this case that Woods’ rights under the Fourteenth Amendment
were violated when Ms. Laury was removed. Judge Myers found as much when she concluded
the prosecutor’s reasons were not race neutral and upheld the Batson challenge. (Report, ECF
No. 19, PageID 4141, citing Trial Tr., ECF No. 10-26, PageID 1533.)
Once the violation was found, the question was what remedy should be applied.
Petitioner now argues that only two constitutional remedies were available: reseating Ms. Laury
or summoning a new venire. The Report hypothesized that Ms. Laury had been excused to the
point that she was no longer physically available, although the record does not show that
conclusively.
Assuming Ms. Laury could not have been reseated, the Report concluded the only
1

The record is incomplete on this point.

5

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 6 of 12 PAGEID #: 4211
070

appropriate remedy would have been to move for a new venire (Report, ECF No. 19, PageID
4142). The Report concluded it was invited error for defense counsel to allow the trial to go
forward with the Batson error in place. Id. at PageID 4142-43. Petitioner objects that Judge
Myers was constitutionally obliged to summon a new venire sua sponte. (Objections, ECF No.
20, PageID 4172-74, relying on Drain v. Woods, 595 Fed. Appx. 558 (6th Cir. 2014).
Drain is parallel to the instant case in many respects. There the trial judge, having raised
the Batson question sua sponte, found a Batson violation but did nothing adequate to cure it:
Despite finding that the prosecutor's strikes were racially
motivated, the trial court failed to cure the Batson violations that
had already occurred, requiring only that the prosecutor approach
the court for permission before striking any more African
American or minority venire persons. Petitioner's counsel
remained silent, failing to raise any objection to this plainly
inadequate remedy.

595 Fed. Appx. at 561. Drain was cited to this Court for the first time in the Objections; it was
not cited in Petitioner’s Reply (ECF No. 17). In discussing the trial court’s failure to remedy the
Batson violation, Judge Clay wrote that “[i]n the absence of any remedial action undertaken by
the trial court, the existence of an unmitigated Batson violation requires that the conviction be
vacated,” Id. at 581, citing Rice v. White, 660 F.3d 242 (6th Cir. 2011), which itself relied on
Batson for this proposition of law. While Judge Clay does not say so explicitly, a fair inference
from the Drain decision is that failure to remedy a Batson violation by reseating the improperly
challenged juror or summoning a new venire results in a conviction that violates the Fourteenth
Amendment as interpreted in clearly established federal law from the Supreme Court. Although
Drain is unpublished, it relies on a holding from Batson.
The difficulty with Petitioner’s present position on the Batson violation is that it is raised
too late. Woods’ present claim is that it was unconstitutional to proceed with trial with a Batson6

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 7 of 12 PAGEID #: 4212
071

infected jury. But that claim is not made in the Petition. The Third Ground for Relief asserts
only that a Batson violation occurred when Judge Myers “require[ed] Woods to demonstrate a
pattern of race-based jury strikes before shifting the burden to the state to offer a race-neutral
explanation.” (Petition, ECF No. 1, PageID 9).
More importantly, Woods never raised on direct appeal the claim he now makes. His
Second Assignment of Error on direct appeal presented only one issue for review: “Batson does
not require a pattern of discrimination to set forth a prima facie case or to require a race-neutral
explanation from the state.” (Appellant’s Brief, State Court Record Ex. 24, ECF No. 10, PageID
249). Nowhere does Woods assert that Judge Myers was constitutionally required to sua sponte
dismiss the venire. Id. at PageID 267-68. Nowhere in the First District’s decision is there any
indication it was presented with the claim now made.

Instead, it understood the Second

Assignment of Error as it was written, to wit, that the trial judge erred in requiring a pattern of
discrimination. State v. Woods, 2014-Ohio-3892, 2014 Ohio App. LEXIS 3820¶¶ 28-31 (1st
Dist. Sept. 10, 2014).
Although the Respondent recited general law on procedural default in the Return (ECF
No. 11, PageID 3904-06), it did not specifically apply that defense as to this Third Ground for
Relief, presumably because the Batson claim was phrased in the Petition in exactly the same
language that was used in the Second Assignment of Error on direct appeal.

It is not

inappropriate for the Court to raise a procedural default defense sua sponte. Sowell v. Bradshaw,
372 F.3d 821, 830 (6th Cir. 2004); Lorraine v. Coyle, 291 F.3d 416 (6th Cir. 2002)(§ 2254 capital
case); White v. Mitchell, 431 F.3d 517, 514 (6th Cir. 2005)(capital case); Elzy v. United States,
205 F.3d 882 (6th Cir. 2000)(§ 2255 case). It is appropriate to raise the procedural default
defense here where the claim now argued (Judge Myers was constitutionally required to summon

7

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 8 of 12 PAGEID #: 4213
072

a new venire sua sponte) was not made in the Petition. Certainly the State did not affirmatively
waive the defense by not raising it when not called on to do so by the wording of the Petition.
“A claim may become procedurally defaulted in two ways.”
Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006). First, a
claim is procedurally defaulted where state-court remedies have
been exhausted within the meaning of § 2254, but where the last
reasoned state-court judgment declines to reach the merits because
of petitioner’s failure to comply with a state procedural rule. Id.
Second, a claim is procedurally defaulted where the petitioner
failed to exhaust state court remedies, and the remedies are no
longer available at the time the federal petition is filed because of a
state procedural rule. Id.
Lovins v. Parker, 712 F.3d 283, 295 (6th Cir. 2013). Failure to raise a constitutional issue at all
on direct appeal is subject to the cause and prejudice standard of Wainwright v. Sykes, 433 U.S.
72 (1977); Murray v. Carrier, 477 U.S. 478, 485 (1986); Mapes v. Coyle, 171 F.3d 408, 413 (6th
Cir. 1999); Rust v. Zent, 17 F.3d 155, 160 (6th Cir. 1994); Leroy v. Marshall, 757 F.2d 94, 97 (6th
Cir. 1985), cert denied, 474 U.S. 831 (1985).
It would be arguable that failure to raise the claim now made on direct appeal was the
result of ineffective assistance of appellate counsel.2 However, such a claim would have to be
presented first to the First District Court of Appeals on a delayed application for reopening under
Ohio R. App. 26(B) and itself would be subject to procedural default analysis. Edwards v.
Carpenter, 529 U.S. 446 (2000).
Because Petitioner’s Batson claim as it is now made was procedurally defaulted by
failure to fairly present it to the First District Court of Appeals, it should be dismissed with
prejudice.

2

Present counsel could not make that argument because she represented Woods on direct appeal.

8

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 9 of 12 PAGEID #: 4214
073

Fourth Objection: General Error in Denying Claims Two, Four, Five, Six, Seven, Eight,
Nine, Ten, and Eleven

In his Fourth Objection, Petitioner states in conclusory form that the Magistrate Judge
erred in denying claims Two, Four, Five, Six, Seven, Eight, Nine, Ten, and Eleven (Objections,
ECF No. 20, PageID 4175). Petitioner makes no argument as to any of these claims, merely
stating “[t]his objection is made to preserve the record and to avoid waiver of arguments for
possible appeal.” Id. at n. 2.
This general objection is unavailing to preserve unstated issues for appeal.
Under the Walters rule [United States v. Walters, 638 F.2d 947 (6th
Cir. 1981)], only specific objections to the Report will be
preserved for appellate review. Smith v. Detroit Fed'n of Teachers,
Local 231, 829 F.2d 1370, 1373 (6th Cir. 1987). This is because
our "function is to review the case presented to the district court,
rather than a better case fashioned after a district court's
unfavorable order." Hall v. Warden, Lebanon Correctional Inst.,
662 F.3d 745, 753 (6th Cir. 2011) (internal quotation marks and
citation omitted).
Henson v. Warden, 2015 U.S. App. LEXIS 13444 *7 (6th Cir. 2015); Willis v. Sullivan, 931 F.2d
390, 401 (6th Cir. 1991).

Fifth Objection: Certificate of Appealability Error

In his Fifth Objection, Woods claims, again in conclusory terms, that the Magistrate
Judge erred in not recommending a certificate of appealability on Grounds Two, Four, Five, Six,
Seven, Eight, Nine, Ten, and Eleven. (Objections, ECF No. 20, PageID 4176). The only
argument made on this Objection is “[r]easonable jurists could disagree as to the merits of these
claims, and the Court should issue a certificate of appealability allowing Woods to raise them on

9

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 10 of 12 PAGEID #: 4215
074

appeal.”

Id.

That is a purely conclusory statement of the standard for a certificate of

appealability; it does not even purport to show which reasonable jurists in which cases have
disagreed. It is therefore an unavailing general objection as is the Fourth Objection supra.

Sixth Objection: Failure to Clarify Scope of Record

Petitioner’s Sixth Objection is that the Magistrate Judge did not address a discrepancy
between the state court record and the federal habeas record before deciding the case
(Objections, ECF No. 20, PageID 4176).
While this case was pending on direct appeal, Petitioner filed a Motion to Expand the
Appellate Record on March 13, 2014. That Motion and the two items sought to be added are
attached to the Reply (ECF No. 17-1). Those items are l) a transcript of the trial court's
September 22, 2011, oral ruling on Woods' motion to suppress,

and 2) a motion for

reconsideration of the trial court's ruling on a motion in limine that was docketed with the
Common Pleas Court on December l8, 2012. Id. at PageID 3999.
Petitioner represents that those items were not included in the State Court Record as filed
by the Respondent and asks that “[t]he Magistrate Judge . . . clarify that this portion of Woods’
state court transcript is a part of the federal habeas record before resolving the merits of Woods’
case.” (Objections, ECF No. 20, PageID 4176.)
Judge Litkovitz’s Order for Answer required the State to file “those portions of the state
court record needed to adjudicate this case (ECF No. 4, PageID 26). The state court record as
filed comprises 3, 857 pages (ECF No. 10, with Attachments 1 through 37). Rule 7 of the Rules
Governing § 2254 Cases permits a party to move to expand the record, but it does not give

10

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 11 of 12 PAGEID #: 4216
075

Petitioner authority to sua sponte expand the record by attaching materials to his reply.
Petitioner here never moved for expansion of the record, but merely attached these materials to
the Reply. Petitioner asserts the First District granted his motion to expand and cites to PageID
405 which is a copy of the docket on appeal.

Respondent has nowhere objected to the

genuineness of these documents or their inclusion in the record. Accordingly, Petitioner’s
implicit motion to expand the record to include these items is GRANTED. Petitioner makes no
argument in the Objections as to their materiality.

Conclusion

Upon reconsideration, the Magistrate Judge adheres to his initial conclusion in this case:
The Petition should be dismissed with prejudice. Because the Magistrate Judge’s conclusions on
the First and Third Grounds for Relief would be debatable among reasonable jurists, Woods
should be granted a certificate of appealability on those claims. Because reasonable jurists
would not disagree with the conclusions on Grounds Two, Four, Five, Six, Seven, Eight, Nine,
Ten, and Eleven , Petitioner should be denied a certificate of appealability on those Grounds.

August 15, 2017.
s/ Michael R. Merz
United States Magistrate Judge

11

Case: 1:16-cv-00643-MRB-MRM Doc #: 22 Filed: 08/15/17 Page: 12 of 12 PAGEID #: 4217
076

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Such objections shall specify the portions of the Report objected to and
shall be accompanied by a memorandum of law in support of the objections. If the Report and
Recommendations are based in whole or in part upon matters occurring of record at an oral
hearing, the objecting party shall promptly arrange for the transcription of the record, or such
portions of it as all parties may agree upon or the Magistrate Judge deems sufficient, unless the
assigned District Judge otherwise directs. A party may respond to another party=s objections
within fourteen days after being served with a copy thereof. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See United States v. Walters, 638
F.2d 947, 949-50 (6th Cir. 1981); Thomas v. Arn, 474 U.S. 140, 153-55 (1985).

12

077

IN THE COURT OF APPEALS
FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO

STATE OF OHIO,
Plaintiff-Appellee,
vs.
RICARDO WOODS,
Defendant-Appellant.

:
:
:
:

APPEAL NOS. C-130413
C-130414
TRIAL NOS. B-1100377
B-1100741
O P I N I O N.

:

Criminal Appeals From: Hamilton County Court of Common Pleas
Judgments Appealed From Are: Affirmed and Cause Remanded
Date of Judgment Entry on Appeal: September 10, 2014
Joseph T. Deters, Hamilton County Prosecuting Attorney, and Philip R. Cummings,
Assistant Prosecuting Attorney, for Plaintiff-Appellee,
Jennifer M. Kinsley, for Defendant-Appellant.

Please note: this case has been removed from the accelerated calendar.

078

OHIO FIRST DISTRICT COURT OF APPEALS

H ILDEBRANDT , Presiding Judge.

{¶1}

Defendant-appellant Ricardo Woods appeals the judgments of the

Hamilton County Court of Common Pleas convicting him of the murder of David
Chandler, a firearm specification, and two counts of felonious assault.
convicted of those offenses and the specification after a jury trial.

He was

Woods also

appeals his conviction for having a weapon while under a disability, a charge that
was tried to the court.
A History of Addiction

{¶2}

David Chandler was addicted to heroin and crack cocaine. On the

evening of October 27, 2010, Chandler was smoking crack cocaine with his live-in
companion James Spears and their friend William Smith.

{¶3}

When the three ran out of crack cocaine, they made plans to obtain

more. They first drove to the home of Father Philip Seher, a Catholic priest who was
the payee for Chandler’s social-security benefits. After a brief stay at Father Seher’s
home to get cash, they went to an area of downtown Cincinnati where Chandler had
bought drugs on numerous occasions. Spears was driving the car, Chandler was in
the front passenger seat, and Smith was in the back seat behind Chandler.

{¶4}

When they got to the area of downtown near Linn and York streets,

Chandler attempted to summon one of his known dealers. As they were parked on
the street, a man approached the car. Spears could see the man only from the
shoulders down and could state only that he was African-American.

{¶5}

According to Spears, the man had said, “Hey Chandler, where’s my

money?” immediately before opening fire into the car. One of the shots severed the
cervical area of Chandler’s spinal cord. As the gunman continued firing into the rear

2

OHIO FIRST DISTRICT COURT OF APPEALS

of the car, Spears drove away, eventually taking Chandler to Good Samaritan
Hospital. The police recovered nine spent ammunition casings and one fired bullet
from the scene of the shooting. The car had been shot multiple times, and the rear
passenger-side window had been shattered.

{¶6}

In light of the severity of his injuries, Chandler was transported to

the University of Cincinnati Medical Center. Paralyzed from the neck down and
unable to breathe on his own, Chandler was placed on life-support apparatus.

{¶7}

After a prolonged period of unconsciousness, Chandler awoke and

showed signs of alertness. Because he was unable to talk, medical personnel devised
a system of communication in which Chandler would blink his eyes a certain number
of times in response to questioning.

{¶8}

Several witnesses who had seen Chandler in the hospital testified

that his responses were usually coherent and demonstrated that he was aware of his
surroundings and circumstances. Father Seher, Chandler’s brother Richard Tucker,
and Dr. Delanie Janke all testified that Chandler had responded appropriately to
their questions about his medical condition and other matters. That testimony was
corroborated by nurse Bryan Burger, with Burger adding the caveat that the
appropriateness of Chandler’s responses diminished to approximately 50 percent
when he was sedated for medical treatment or when he was given pain medication.

{¶9}

One day in early November, Father Seher visited Chandler to

discuss his medical prognosis. According to Father Seher, Chandler did not believe
that he would survive his injuries. At Chandler’s request, Father Seher administered
the Sacrament of Last Rites. Father Seher testified that Chandler’s responses on that
day were consistently appropriate, and he had no doubt that Chandler was aware of
the gravity of his medical condition.

3

079

OHIO FIRST DISTRICT COURT OF APPEALS

Near the time that he expressed the belief that he would not

{¶10}

survive his injuries, Chandler had responded in the affirmative when Tucker had
asked him if he could identify the person who had shot him. Tucker then contacted
the police. Based on the information that Chandler had provided, the police asked
him to blink on the letter of the alphabet that corresponded with the shooter’s
nickname.

Chandler blinked affirmatively on the letter “O,” which was one of

Woods’s street names. After Chandler had blinked affirmatively on “O,” the police
showed him a photograph of Woods, and Chandler identified Woods as the man who
had shot him.

{¶11}

On November 12, 2010, Chandler died from an aneurysm caused

by his spinal injury.

{¶12}

Spears testified that Chandler had bought drugs from Woods on

numerous occasions and that he had owed Woods money. According to Spears,
Woods had seemed angry with Chandler over his debts in the days preceding the
shooting, and Woods had threatened Chandler.

{¶13}

Woods was arrested in Lorain, Ohio, in January 2011. While being

held at the Hamilton County Justice Center, Woods met Jermaine Beard. At trial,
Beard testified that Woods had confessed to having shot a person because of a drug
debt.

{¶14}

The defense presented the testimony of psychologist Dr. Jennifer

Dysart, who testified that the circumstances of the crime and the identification
process used by the police tended to discredit Chandler’s identification of Woods as
the perpetrator.

{¶15}

Woods also presented the testimony of Marvin H. Rorick, M.D., a

neurologist who had examined Chandler’s medical records and who had viewed the
video footage of Chandler identifying Woods as the shooter. Dr. Rorick testified that,

4

080

OHIO FIRST DISTRICT COURT OF APPEALS

in light of the injuries and the medication administered to Chandler, he “was not
convinced that [Chandler] had the capacity” to make a proper identification.
Similarly, emergency physician Anthony Abdullah, M.D., testified that, based on the
video and his review of Chandler’s medical records, he did not believe Chandler
capable of accurately identifying someone in a photograph.

{¶16}

After the jury and the trial court had rendered guilty verdicts, the

court sentenced Woods to a prison term of 15 years to life for murder; to two terms of
eight years’ imprisonment for felonious assault; to 24 months’ imprisonment for
having a weapon while under a disability; and to three years’ imprisonment for the
firearm specification.

The court ordered all of the sentences to be served

consecutively.
The Admission of Chandler’s Identification

{¶17}

In his first assignment of error, Woods contends that the trial court

erred in admitting into evidence Chandler’s identification of Woods as the
perpetrator.

We first address Woods’s argument that the admission of the

identification violated his rights under the Confrontation Clause of the United States
Constitution and that the identification constituted inadmissible hearsay.

{¶18}

The Confrontation Clause of the Sixth Amendment generally

prohibits the admission of testimonial statements of a witness who did not testify at
trial, unless the witness was unavailable for trial and the defendant had had the prior
opportunity to cross-examine the witness. Crawford v. Washington, 541 U.S. 36,
68, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004).

{¶19}

But in Crawford, the court held that a dying declaration was one

exception to this rule of inadmissibility. Id. at 56, fn. 6. As this court has recently
held, dying declarations may be admitted as an exception to the rule set forth in

5

081

OHIO FIRST DISTRICT COURT OF APPEALS

Crawford, irrespective of whether the declaration is considered testimonial. State v.
Kennedy, 2013-Ohio-4221, 998 N.E.2d 1189, ¶ 64 (1st Dist.).

{¶20}

In Kennedy, we held that Evid.R. 804(B)(2) comports with the

common-law definition of a dying declaration when analyzing the exception to the
rule in Crawford. Id. at ¶ 67. Evid.R. 804(B)(2) provides that the following is not
excluded by the hearsay rule if the declarant is unavailable as a witness:
[i]n a prosecution for homicide or in a civil action or proceeding, a
statement made by a declarant, while believing that his or her death
was imminent, concerning the cause or circumstances of what the
declarant believed to be his or her impending death.

{¶21}

In Kennedy, this court stated that, to qualify as a dying declaration

under the rule, “the evidence must show that the deceased’s statements were made
under a sense of impending death that excluded from the mind of the dying person
all hope or expectation of recovery.” Kennedy at ¶ 41, citing State v. Ray, 189 Ohio
App.3d 292, 2010-Ohio-2348, 938 N.E.2d 378, ¶ 40 (8th Dist.); State v.
Washington, 1st Dist. Hamilton No. C-090561, 2010-Ohio-3175, ¶ 21; State v. Ross,
7th Dist. Mahoning Nos. 96-CA-247 and 96-CA-251, 1999 Ohio App. LEXIS 4859
(Oct. 12, 1999), cited in State v. McGee, 7th Dist. Mahoning No. 07-MA-137, 2009Ohio-6397, ¶ 33. The declarant is not required to state that he believes he will not
recover, as “the necessary state of mind may be inferred from circumstances at the
time of the declaration.” Kennedy at ¶ 42, citing Ross, supra.

{¶22}

In this case, Chandler’s statement was properly admitted as a dying

declaration. According to Father Seher, Chandler was convinced that he was not
going to survive his injuries, as Chandler requested the sacrament of Last Rites. And
while Chandler’s family had made contingent plans for rehabilitation in case

6

082

OHIO FIRST DISTRICT COURT OF APPEALS

Chandler would survive, the state presented ample evidence that Chandler himself
had no hope of recovery.

{¶23}

Woods next argues that the trial court erred in overruling his

motion to suppress the identification because the procedure employed by the
investigating officers was unduly suggestive.

{¶24}

Appellate review of a motion to suppress presents a mixed question

of law and fact. State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio-5372, 797 N.E.2d
71, ¶ 8. An appellate court must accept the trial court’s findings of fact if they are
supported by some competent, credible evidence. Id. Accepting those facts as true,
the appellate court must then independently determine, without deference to the
trial court’s judgment, whether the facts satisfy the applicable legal standard. Id.

{¶25}

To suppress identification testimony, the trial court must find that

the identification procedure “was so impermissibly suggestive as to give rise to a very
substantial likelihood of irreparable misidentification.” Neil v. Biggers, 409 U.S. 188,
197, 93 S.Ct. 375, 34 L.Ed.2d 401 (1972), quoting Simmons v. United States, 390 U.S.
377, 384, 88 S.Ct. 967, 19 L.Ed.2d 1247 (1968); State v. Green, 117 Ohio App.3d 644,
652, 691 N.E.2d 316 (1st Dist.1996). “Reliability is the linchpin in determining the
admissibility of identification testimony * * *.” Manson v. Brathwaite, 432 U.S. 98,
114, 97 S.Ct. 2243, 53 L.Ed.2d 140 (1977). Thus, even if the identification procedure
was suggestive, so long as the challenged identification was reliable, it is admissible.
Id.; State v. Seay, 1st Dist. Hamilton No. C-090233, 2010-Ohio-896, ¶ 29.

{¶26}

In this case, the trial court properly held that the identification was

reliable. The state presented evidence that Chandler had known Woods for a long
period of time and had repeatedly purchased drugs from Woods in the area where
the shooting had occurred.

And it was through Chandler’s prompting that the

investigating officers had brought the photograph of Woods to the hospital.

7

083

OHIO FIRST DISTRICT COURT OF APPEALS

{¶27}

Nonetheless, Woods contends that the identification was subject to

suppression in light of the investigating officers’ alleged failure to comply with the
identification procedures set forth in R.C. 2933.83. But as this court has held, an
alleged violation of R.C. 2933.83 is not a proper basis for suppression, as the remedy
for such a violation is cross-examination about the police procedures at trial. State v.
Cook, 1st Dist. Hamilton No. C-130242, 2013-Ohio-5449, ¶ 33, citing State v. Ruff,
1st Dist. Hamilton No. C-110250, 2012-Ohio-1910, ¶ 5; R.C. 2933.83(C)(1).
Accordingly, the trial court did not err in admitting the identification, and we
overrule the first assignment of error.
Batson Challenges

{¶28}

In his second assignment of error, Woods argues that the state

exercised peremptory challenges during voir dire in violation of Batson v. Kentucky,
476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986).

After the first peremptory

challenge of a prospective African-American juror, the trial court stated that Woods
had not yet established a pattern of discrimination. Woods argues that he was not
required to establish a pattern of discrimination to trigger the state’s burden to
provide a race-neutral explanation for the challenge.

{¶29}

In Batson, the court created a three-part test to determine if the

state has used peremptory challenges in a discriminatory manner. The opponent of
the challenge must first make a prima facie showing of discriminatory intent. See
State v. Were, 118 Ohio St.3d 448, 2008-Ohio-2762, 890 N.E.2d 263, ¶ 61. If the
trial court finds the first requirement fulfilled, the state must then provide a racially
neutral explanation for the challenge. Id. Finally, the court must decide whether,
under all of the circumstances, the opponent has demonstrated racial discrimination.
Id. A trial court’s finding that the opponent has failed to prove discriminatory intent
will not be reversed unless it is clearly erroneous. State v. Hernandez, 63 Ohio St.3d

8

084

085

OHIO FIRST DISTRICT COURT OF APPEALS

577, 583, 589 N.E.2d 1310 (1992), following Hernandez v. New York, 500 U.S. 352,
369, 111 S.Ct. 1859, 114 L.Ed.2d 395 (1991).

{¶30}

Woods is correct in his assertion that the opponent of a peremptory

challenge is not required to demonstrate a pattern of discrimination.

State v.

Walker, 139 Ohio App.3d 52, 56, 742 N.E.2d 1173 (1st Dist.2000). As we have held,
“[t]he exercise of even one peremptory challenge in a purposefully discriminatory
manner is a violation of equal protection.” State v. Taylor, 1st Dist. Hamilton No. C020475, 2004-Ohio-1494, ¶ 20, citing State v. Gowdy, 88 Ohio St.3d 387, 727
N.E.2d 579 (2000), and Walker, supra. Thus, the trial court did err in concluding
that Woods was required to demonstrate a discriminatory pattern.

{¶31}

But the court rectified its error by requiring the state to provide a

race-neutral explanation for the first challenge after the state had exercised a second
peremptory challenge of an African-American. See State v. Tibbs, 1st Dist. Hamilton
No. C-100378, 2011-Ohio-6716, ¶ 24. Specifically, the state cited answers given by
the first challenged juror suggesting that she would hold the state to a higher
standard than required by law with respect to identification testimony. As for the
second juror, the state noted that she had described herself as an honest person but
then conceded that she had been convicted of an offense involving dishonesty. The
trial court’s acceptance of those explanations was not clearly erroneous. We overrule
the second assignment of error.
Discovery

{¶32}

In his third assignment of error, Woods maintains that the trial

court erred in certifying two state’s witnesses for nondisclosure.

{¶33}

Crim.R. 16 governs discovery in general and witness disclosure in

particular. Crim.R. 16(I) states that “[e]ach party must provide to opposing counsel
a written witness list, including names and addresses of any witness it intends to call

9

OHIO FIRST DISTRICT COURT OF APPEALS

in its case-in-chief, or reasonably anticipates calling in rebuttal or surrebuttal.” But
under Crim.R. 16(D)(1), “[t]he prosecuting attorney shall certify to the court that the
prosecuting attorney is not disclosing material” that is otherwise subject to
disclosure if he “has reasonable, articulable grounds to believe that disclosure will
compromise the safety of a witness * * *.”

{¶34}

Among the reasons for nondisclosure, the prosecution may cite

“the nature of the case, the specific course of conduct of one or more parties, [and]
threats or prior instances of witness tampering or intimidation * * *.” Crim.R. 16(D).
The trial court may not reject the prosecuting attorney’s certification for
nondisclosure unless it finds that the prosecution has abused its discretion. Crim.R.
16(F). This court, in turn, reviews a trial court’s decisions concerning discovery—
including issues of witness disclosure—under an abuse-of-discretion standard. State
v. Williams, 1st Dist. Hamilton No. C-130277, 2014-Ohio-1526, ¶ 14.

{¶35}

In the case at bar, there was no abuse of discretion. With respect to

one of the witnesses, the trial court conducted a hearing in which the state presented
case-specific evidence that disclosure of the witness’s identity would threaten his
safety and the safety of his family and friends. This witness was in fact murdered
before trial. And as the state correctly asserts, there was no showing that the witness
in question would have provided exculpatory evidence or that Woods was otherwise
prejudiced by the nondisclosure.

{¶36}

The second witness subject to a nondisclosure order was Beard.

The assistant prosecutor once again provided case-specific information that the
witness feared for his safety, and the court ordered the state to provide Beard’s
identity to the defense no later than the commencement of trial, as provided in
Crim.R. 16(F)(5). Woods has not demonstrated an abuse of discretion on the part of

10

086

OHIO FIRST DISTRICT COURT OF APPEALS

the prosecuting attorney or the trial court, and we overrule the third assignment of
error.

Limitation of Expert Testimony
{¶37}

In his fourth assignment of error, Woods contends that the trial

court erred in limiting the testimony of his expert witnesses. He first argues that the
court erred in restricting the testimony of psychologist Dr. Dysart. Although Dr.
Dysart was permitted to testify about the factors in this case that would have
impeded Chandler’s ability to identify his assailant, Woods argues that the court
erred in precluding Dysart from rendering an opinion on the ultimate issue of
Chandler’s credibility.

{¶38}

Evid.R. 704, along with Evid.R. 702, 402, and 403, generally

permits the admission of expert testimony on an ultimate issue to be decided by the
trier of fact. See State v. Campbell, 1st Dist. Hamilton Nos. C-010567 and C-010596,
2002 Ohio App. LEXIS 1158 (Mar. 15, 2002).

And the expert testimony of an

experimental psychologist concerning variables or factors that may impair the
accuracy of a typical eyewitness identification is admissible under Evid.R. 702. State
v. Buell, 22 Ohio St.3d 124, 489 N.E.2d 795 (1986), paragraph one of the syllabus.
But testimony of such an expert regarding the credibility of a particular witness is
inadmissible under Evid.R. 702, absent a showing that the witness suffers from a
mental or physical impairment that would affect his ability to observe or recall
events. Id. at paragraph two of the syllabus.

{¶39}

Under Buell, we review the trial court’s decision to admit or

exclude evidence for an abuse of discretion. Id. at 133. In addition, under Evid.R.
402, the trial court retains the discretion to exclude even relevant evidence if it would
unduly waste time or confuse the issues. Id.

11

087

OHIO FIRST DISTRICT COURT OF APPEALS

{¶40}

In this case, we find no abuse of discretion. Although the evidence

indicated that Chandler had been smoking crack cocaine on the night of the
shooting, the state demonstrated that the effects of the drug would have dissipated
by the time the gunman approached the car.

There was also an indication in

Chandler’s medical chart that he had suffered from oxygen deprivation and its
attendant effects on his mental functioning, but Jordan Bradley Bonomo, M.D., a
neurointensivist who had treated Chandler, testified that the notation in the chart
had been erroneous.

{¶41}

Moreover, Dr. Dysart herself conceded that the statistical data she

had compiled with respect to the factors affecting the reliability of identification in
general could not be used to predict or assess the identification made by a particular
witness. Thus, the trial court could have reasonably concluded that Dysart’s opinion
concerning Chandler’s credibility would have confused the issues or misled the jury.

{¶42}

Finally, the defense was permitted, through the testimony of Dr.

Rorick and Dr. Abdullah, to adduce expert evidence about the credibility of
Chandler’s identification. Thus, the exclusion of similar evidence proffered by Dr.
Dysart cannot be said to have resulted in material prejudice to Woods.

{¶43}

Woods next argues that the trial court erred in rejecting the

testimony of a law professor on the issue of jailhouse informant Beard’s credibility.
Woods proffered that the professor would have testified about the inherent
deficiencies in the testimony of jailhouse informants in light of the widespread
exchange of favorable testimony for reduced sentences.

{¶44}

To be admissible, an expert opinion must first relate “to matters

beyond the knowledge or experience possessed by laypersons” or dispel “a
misconception common among laypersons * * *.” See State v. Garrett, 1st Dist.
Hamilton No. C-090592, 2010-Ohio-5431, ¶ 35. And, once again, a trial court’s

12

088

OHIO FIRST DISTRICT COURT OF APPEALS

determination of admissibility under Evid.R. 702 will not be reversed absent an
abuse of discretion. Id.

{¶45}

In this case, we find no abuse of discretion. Woods was permitted

to cross-examine Beard at length about jailhouse informants in general, about his
previous cooperation with the police, and about his expectation that he would benefit
from his testimony in this case. We are not persuaded that the proffered expert
testimony would have further illuminated the subject for the jury, and we overrule
the fourth assignment of error.
Beard’s Testimony

{¶46}

In his fifth assignment of error, Woods argues that the trial court

erred in permitting Beard to testify about Woods’s alleged confession to the offenses.
Woods first maintains that Beard was acting as an agent of the state and that the
admission of the confession violated Woods’s right to counsel under the Sixth
Amendment. See United States v. Henry, 447 U.S. 264, 100 S.Ct. 2183, 65 L.Ed.2d
115 (1980).

{¶47}

We find no merit in this argument. At a hearing on this issue, the

evidence indicated that, although Beard had worked with the police in the past, he
was not acting on behalf of the state or at the state’s direction when Woods made the
statement about the shootings in this case.

{¶48}

Woods next argues that the court erred in failing to hold a

credibility hearing before Beard was permitted to testify. Again, this argument is
without merit. Beard’s credibility was for the jury to determine, and Woods was
permitted to cross-examine him extensively about his involvement with the police
and his expectation that he would benefit from testifying against Woods. Moreover,
the jury was properly instructed to consider a witness’s bias or interest in
determining credibility. It was not incumbent on the trial court to hold a separate

13

089

OHIO FIRST DISTRICT COURT OF APPEALS

hearing on the issue. See State v. Howard, 1st Dist. Hamilton No. C-100240, 2011Ohio-2862, ¶ 46.

{¶49}

Woods also contends that the trial court erred in restricting his

cross-examination of Beard with respect to an alleged prior violent crime involving
an elderly victim. But because the questioning involved only a charge against Beard,
as opposed to a conviction, Woods can demonstrate no error. Evid.R. 609; State v.
Rodriquez, 31 Ohio App.3d 174, 176, 509 N.E.2d 952 (9th Dist.1986). We overrule
the fifth assignment of error.
Exclusion of Chandler’s Medical Records

{¶50}

In his sixth assignment of error, Woods argues that the trial court

erred in excluding from evidence portions of Chandler’s medical and psychiatric
records. Specifically, the court excluded records from 2004 indicating that Chandler
had psychiatric disorders and a history of drug abuse. Woods sought to introduce
the records to cast doubt on Chandler’s ability to identify his assailant.

{¶51}

The decision to admit or exclude a victim’s medical records will not

be reversed absent an abuse of discretion. See State v. Kidd, 11th Dist. Portage No.
2006-P-0087, 2007-Ohio-6562, ¶ 59.

Here, the trial court did not abuse its

discretion. Woods simply could not demonstrate a connection between Chandler’s
psychiatric condition in 2004 and his ability to identify his assailant in 2010. Thus,
the trial court reasonably concluded that the evidence was not relevant under Evid.R.
401. We overrule the sixth assignment of error.
Performance of Trial Counsel

{¶52}

In his seventh assignment of error, Woods maintains that he was

deprived of the effective assistance of trial counsel.

To establish ineffective

assistance of counsel, the defendant must demonstrate that counsel’s performance
fell below an objective standard of reasonable performance and that prejudice arose

14

090

OHIO FIRST DISTRICT COURT OF APPEALS

from counsel’s performance. Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984); State v. Bradley, 42 Ohio St.3d 136, 538 N.E.2d 373
(1989), paragraphs two and three of the syllabus.

{¶53}

In this case, we find no deficiency on the part of trial counsel.

Woods first argues that counsel was deficient in failing to present the statement of
the deceased witness discussed under the third assignment of error. But as the state
correctly notes, that witness had identified the shooter as “Carlos” or “Los,” which
were two of Woods’s nicknames. Thus, the statement of the witness would have
bolstered the state’s contention that Woods was the perpetrator. There was simply
no deficiency in defense counsel’s failure to pursue the issue.

{¶54}

Woods next argues that counsel was derelict in failing to more

diligently discredit the testimony of Beard.

As we have already noted, counsel

vigorously challenged both the admissibility and the credibility of Beard’s testimony,
and we can discern no lack of skill or diligence in counsel’s handling of the issue.

{¶55}

Woods also maintains that counsel failed to appropriately attack

the credibility of Chandler’s identification under R.C. 2933.83. Again, we find no
merit to this claim. Counsel consistently attacked the identification procedure used
by the officers, both by cross-examining the officers and by offering expert testimony
concerning the suggestiveness of the procedure.

Woods’s inability to obtain

suppression of the identification as a result of the officers’ alleged violation of the
statute was not the result of counsel’s deficiency; suppression was simply not an
available remedy. See Cook, 1st Dist. Hamilton No. C-130242, 2013-Ohio-5449, and
Ruff, 1st Dist Hamilton No. C-110250, 2012-Ohio-1910.

{¶56}

Next, Woods argues that counsel was ineffective in the

presentation of the testimony and report of Dr. Dysart. Specifically, he argues that
counsel failed to pursue the issue of nonstranger identification. But Woods has not

15

091

OHIO FIRST DISTRICT COURT OF APPEALS

specifically identified what Dr. Dysart could have added to her testimony or report to
further discredit Chandler’s identification of Woods as his assailant and has
therefore failed to demonstrate prejudice.

{¶57}

Finally, Woods argues that counsel was ineffective in failing to

object to instances of prosecutorial misconduct in closing argument. Specifically, he
argues that his attorneys should have objected to the assistant prosecutor’s argument
that the investigating officers had not violated R.C. 2933.83. As we discuss under the
ninth assignment of error, there was no prejudice resulting from the comments on
the statutory procedures.

{¶58}

In sum, we find no deficiency on the part of trial counsel, and we

overrule the seventh assignment of error.
Jury Instructions

{¶59}

In his eighth assignment of error, Woods argues that the court

erred in instructing the jury. He first argues that the court improperly instructed the
jury on the issue of flight.

{¶60}

An instruction on flight as it relates to a defendant’s consciousness

of guilt is proper if there is sufficient evidence of escape or some affirmative attempt
to avoid apprehension. State v. Robinson, 1st Dist. Hamilton No. C-060434, 2007Ohio-2388, ¶ 19, citing State v. Brundage, 1st Dist. Hamilton No. C-030632, 2004Ohio-6436, ¶ 17. A trial court’s decision to instruct the jury on flight will not be
reversed absent an abuse of discretion. Robinson at ¶ 19, citing Brundage at ¶ 18.

{¶61}

Here, we find no abuse of discretion. The state presented evidence

that Woods had been a long-time resident of Cincinnati and in particular of the area
in which the shooting had occurred. In light of his capture several months later in
the vicinity of Cleveland, we cannot say that the instruction on flight was arbitrary,
unreasonable, or unconscionable.

16

092

OHIO FIRST DISTRICT COURT OF APPEALS

{¶62}

Woods also contends that the court erred in failing to instruct the

jury on the state’s alleged failure to comply with the identification guidelines
contained in R.C. 2933.83. R.C. 2933.83(C) states that:
When evidence of a failure to comply with any of the provisions of this
section, or with any procedure for conducting lineups that has been
adopted by a law enforcement agency or criminal justice agency
pursuant to division (B) of this section and that conforms to any
provision of divisions (B)(1) to (5) of this section, is presented at trial,
the jury shall be instructed that it may consider credible evidence of
noncompliance in determining the reliability of any eyewitness
identification resulting from or related to the lineup.
We first reiterate that this was not a situation in which the victim was attempting to
identify an unknown assailant from a lineup; the state presented evidence that
Chandler had bought drugs from Woods on numerous occasions and that Chandler
had prompted the investigation of Woods when he informed Richard Tucker that he
could identify the perpetrator. Thus, the single-photo procedure did not result in the
likelihood of misidentification. See State v. Johnson, 1st Dist. Hamilton No. C090413, 2010-Ohio-3861, ¶ 24.

{¶63}

Moreover, the trial court instructed the jury in this case that a

single-photograph presentation “is generally considered suggestive.” Accordingly,
even though the court did not identify the statute by its Revised Code section, the
jury was instructed that the procedures used by the officers could be considered in
determining the reliability of the identification. We find no error in the instructions,
and we overrule the eighth assignment of error.

17

093

OHIO FIRST DISTRICT COURT OF APPEALS

Prosecutorial Misconduct

{¶64}

In his ninth assignment of error, Woods contends that he was

deprived of a fair trial by prosecutorial misconduct.

The test for prosecutorial

misconduct is whether the prosecutor’s remarks were improper, and, if so, whether
they prejudicially affected the defendant’s substantial rights. State v. Glenn, 1st Dist.
Hamilton No. C-090205, 2011-Ohio-829, ¶ 52, citing State v. Smith, 14 Ohio St.3d
13, 14-15, 470 N.E.2d 883 (1984), and State v. Canyon, 1st Dist. Hamilton Nos. C070729, C-070730 and C-070731, 2009-Ohio-1263, ¶ 17.

{¶65}

Woods first argues that, during closing argument, the assistant

prosecutor improperly alluded to portions of Spears’s prior statement to police after
the trial court had excluded those portions from evidence. The issue surrounding the
prior statement was the extent to which Chandler had known Woods before the night
of the shooting.

{¶66}

We find no impropriety. The prosecutor made reference to the

excluded portions only in response to defense counsel’s playing of a portion of the
statement in which Spears failed to mention Chandler’s relationship with Woods.
The state’s reference to the statement was thus merely intended to rebut the
implication that Spears had fabricated his testimony about the relationship.
Moreover, because the trial court instructed the jury to consider only those items
that had been admitted into evidence, we cannot say that Woods was prejudiced by
the state’s comments. See generally State v. Ruff, 1st Dist. Hamilton No. C-120844,
2013-Ohio-5892, ¶ 16.

{¶67}

Woods next argues that the assistant prosecutor improperly

informed the jury that the investigating officers had not violated R.C. 2933.83 by
using a single-photograph identification procedure.
prejudice in the comments.

Once again, we find no

As we have already held, the trial court properly

18

094

OHIO FIRST DISTRICT COURT OF APPEALS

instructed the jury about the identification procedure, and we must presume that the
jury followed those instructions. Id. Accordingly, we overrule the ninth assignment
of error.
Sufficiency and Weight of the Evidence

{¶68}

In his tenth assignment of error, Woods argues that his convictions

were based on insufficient evidence and were against the manifest weight of the
evidence.

{¶69}

In reviewing the sufficiency of the evidence to support a conviction,

the relevant inquiry for the appellate court “is whether, after viewing the evidence in
the light most favorable to the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt.” State v. Waddy, 63
Ohio St.3d 424, 430, 588 N.E.2d 819 (1992). To reverse a conviction on the manifest
weight of the evidence, a reviewing court must review the entire record, weigh the
evidence and all reasonable inferences, consider the credibility of the witnesses, and
conclude that, in resolving the conflicts in the evidence, the trier of fact clearly lost its
way and created a manifest miscarriage of justice in finding the defendant guilty.
State v. Thompkins, 78 Ohio St.3d 380, 387, 678 N.E.2d 541 (1997).

{¶70}

R.C. 2903.02(B), governing murder, states that “[n]o person shall

cause the death of another as a proximate result of the offender’s committing or
attempting to commit an offense of violence that is a felony of the first or second
degree * * *.” The underlying felony in this case was felonious assault under R.C.
2903.11(A)(1), which provides that “[n]o person shall knowingly * * * [c]ause serious
physical harm to another * * *.” For the attempted shooting of Smith and Spears,
Woods was convicted of felonious assault under R.C. 2903.11(A)(2), which states that
“[n]o person shall knowingly * * * [c]ause or attempt to cause physical harm to
another * * * by means of a deadly weapon or dangerous ordnance.”

19

095

OHIO FIRST DISTRICT COURT OF APPEALS

{¶71}

In this case, the convictions were in accordance with the evidence.

Chandler identified Woods as the person who had fired multiple shots into the car
and who had inflicted the injury that ultimately proved to be fatal. Beard’s testimony
corroborated Chandler’s identification. The number of shots fired into the car—and
in particular those fired into the rear window—indicated that Woods had attempted
to harm all of the car’s occupants. Finally, it was undisputed that Woods was under a
legal disability at the time of the offenses. We cannot say that the jury or the trial
court created a manifest miscarriage of justice in finding Woods guilty, and we
overrule the tenth assignment of error.
Sentencing

{¶72}

In his eleventh and final assignment of error, Woods argues that

the court erred in its sentence. He contends that the trial court erred by failing to
consider the proper statutory factors before imposing consecutive sentences.

{¶73}

Under R.C. 2929.14(C)(4), the court must first find that

consecutive sentences are necessary to protect the public or to punish the offender.
Second, the court must find that consecutive sentences are not disproportionate to
the offender's conduct and to the danger the offender poses to the public. Finally,
the court must find that at least one of the following applies: (1) that the offender
committed one or more of the offenses while awaiting trial or sentencing, while
under a community-control sanction, or on postrelease control; (2) at least two of the
multiple offenses were committed as part of one or more courses of conduct and the
harm caused by two or more of the offenses was so great or unusual that no single
prison term would adequately reflect the seriousness of the offender's conduct; or
(3) that the offender's criminal history demonstrates that consecutive sentences are
necessary to protect the public from future crime by the offender. See State v.
Alexander, 1st Dist. Hamilton Nos. C-110828 and C-110829, 2012-Ohio-3349, ¶ 15.

20

096

OHIO FIRST DISTRICT COURT OF APPEALS

{¶74}

An appellate court may not reverse a sentence unless it is clearly

and convincingly contrary to law.

See R.C. 2953.08(G)(2); State v. White, 2013-

Ohio-4225, 997 N.E.2d 629, ¶ 11 (1st Dist.).

We must presume that the court

considered all relevant sentencing factors unless the defendant affirmatively
demonstrates that the court had failed to do so. State v. Brown, 1st Dist. Hamilton
No. C-120327, 2013-Ohio-2720, ¶ 46.

{¶75}

Here, the trial court made the requisite findings for the imposition

of consecutive sentences, and those findings were supported by the record. The trial
court explicitly considered the seriousness of the instant offenses, Woods’s
deplorable criminal record, and other relevant circumstances.

{¶76}

But during the pendency of these appeals, the Supreme Court of

Ohio held that a trial court must not only make the statutory findings at the
sentencing hearing, but must also incorporate those findings into its sentencing
entry. State v. Bonnell, __Ohio St.3d __, 2014-Ohio-3177, __ N.E.3d __, syllabus.
Nonetheless, because the failure to incorporate the findings into the sentencing entry
is considered a clerical mistake, the court may correct the error in a nunc pro tunc
entry to reflect what happened in open court. Id. at ¶ 30. In this case, the court
made the requisite findings in open court but did not incorporate those findings into
its sentencing entries. Thus, we sustain the eleventh assignment of error only to the
extent that the trial court failed to include the statutory findings in its sentencing
entries. Otherwise, we overrule the eleventh assignment of error.
Conclusion

{¶77}

We remand the cause for the trial court to incorporate its

sentencing findings into its judgment entries of conviction. In all other respects, we
affirm the judgments of the trial court.
Judgments affirmed and cause remanded.

21

097

OHIO FIRST DISTRICT COURT OF APPEALS

HENDON and FISCHER, JJ., concur.

Please note:
The court has recorded its own entry on the date of the release of this opinion.

22

098

